App. 1
United States Court of Appeals
for the Eighth Circuit
-----------------------------------------------------------------------

No. 18-2915
-----------------------------------------------------------------------

Byron David Smith,
Petitioner - Appellant,
v.
Jeff Titus, Warden, MCF – Oak Park Heights,1
Respondent - Appelle.
-----------------------------------------------------------------------

Appeal from United States District Court
for the District of Minnesota – St. Paul
-----------------------------------------------------------------------

Submitted: November 13, 2019
Filed: May 5, 2020
-----------------------------------------------------------------------

Before COLLOTON, WOLLMAN, and BENTON, Circuit Judges.
-----------------------------------------------------------------------

COLLOTON, Circuit Judge.
A jury in Minnesota state court convicted Byron
Smith on two counts of murder in 2014, and the trial
court imposed two life sentences. The Minnesota
1

Warden Titus is automatically substituted for his predecessor
under Federal Rule of Appellate Procedure 43(c)(2).

App. 2
Supreme Court affirmed Smith’s convictions on direct
review. State v. Smith, 876 N.W.2d 310 (Minn. 2016).
Among other points, the court rejected Smith’s argument that the trial court violated his Sixth Amendment right to a public trial when it briefly closed the
courtroom to spectators. Smith later applied for a writ
of habeas corpus in federal court and raised his Sixth
Amendment claim. The district court2 denied relief on
the ground that the Minnesota Supreme Court’s decision was neither contrary to, nor an unreasonable application of, clearly established federal law. We affirm.
I.
On Thanksgiving Day in 2012, Smith shot and
killed two people, Nicholas Brady and Haile Kifer, who
had broken into his home in Little Falls, Minnesota.
The prosecution presented evidence that Smith shot
each of the victims as they descended stairs into the
basement of his home, and then shot and killed each of
them at close range after they lay injured on the basement floor.
Smith maintained that he used reasonable force
in defense of himself and his home. He sought to introduce evidence at trial that Brady had participated in a
series of burglaries of Smith’s house in the weeks before the shooting. Although there was no evidence that
Smith knew or suspected Brady before the date of the

2

The Honorable John R. Tunheim, Chief Judge, United
States District Court for the District of Minnesota.

App. 3
shooting, Smith wanted to call witnesses to testify
about Brady’s involvement in the previous burglaries.
The trial court held two hearings, open to the public, on March 25 and April 17, 2014. On April 4, after
the first hearing, the court filed a public order ruling
that the occurrence of the prior burglaries was relevant, but that Brady’s involvement in those burglaries
was not. The court reasoned that the reasonableness of
Smith’s actions must be determined by his state of
mind at the time of the shootings, not by what he
learned later about Brady’s alleged participation. At
the public hearing on April 17, Smith argued that the
court should allow him to call three witnesses to testify
about Brady’s involvement in the burglaries: Brady’s
mother and two of Brady’s alleged co-participants, J.K.
and C.K. Defense counsel identified the potential witnesses by name at the hearing, and their full names
appeared in the public record of the proceedings.
The court next convened on April 21 for the first
day of trial. Jury selection had been completed the
week before, but the jury had not yet taken its final
oath. When Smith’s case was called that morning, the
court immediately cleared all spectators from the
courtroom. Smith’s counsel objected to the closure, asking that the general public and members of the media
be allowed to observe, because “[t]o not allow that
would infringe upon the freedom of the public to be
present as well as free press” and would violate Smith’s
“right to a public trial.”

App. 4
The court overruled the objection and proceeded to
discuss its ruling on Smith’s request to call witnesses
about the prior burglaries:
[T]he pretrial ruling of the court was that the
defense had given notice that it . . . wants to
offer testimony from [J.K.] and [C.K.] about
their involvement in prior burglaries which, of
course, would have involved Nick Brady as
well as a co-perpetrator. And the court has
ruled the defendant will not disclose the
names of [J.K., C.K.,] or Brady involved in
prior burglaries. . . .
The court then explained why it closed the courtroom:
And for that reason – that was the reason that
the court is not allowing the press in for this
ruling, because otherwise it could be printed,
and indeed, while the jurors hopefully will follow the admonition not to read or hear anything in the press and TV and such in the
meantime while this case is pending, certainly
the media would publish and print the substance of the court’s pretrial ruling, and then
of course it runs the risk of getting to the jury
if for some reason they don’t adhere to their
oath.
Shortly after this exchange, the trial court filed a
public order ruling on the motion in limine that was
discussed during the closure. The order “reiterate[d]”
that evidence of prior bad acts by Brady or Kifer of
which Smith was unaware at the time of the shooting
would be inadmissible. The court ruled that Smith
could elicit evidence about the fact of prior burglaries

App. 5
through law enforcement agents, but that there would
“be no need to seek its admission through more prejudicial means (i.e., through the testimony of Brady’s
mother or of a perpetrator of the prior break-ins).” A
few minutes later, the court reopened the courtroom,
swore in the jury, and proceeded to opening statements
in the trial.
The jury found Smith guilty of two counts of murder, and the court sentenced him to two life terms in
prison. Smith appealed to the Minnesota Supreme
Court on several grounds, including that the trial court
allegedly denied his Sixth Amendment right to a “public trial” when it briefly closed the courtroom. The Sixth
Amendment provides that “[i]n all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial.” U.S. Const. amend. VI.
The Minnesota court concluded that the trial
court’s “nonpublic proceeding was administrative in
nature and did not constitute a closure implicating
Smith’s Sixth Amendment right to a public trial.” 876
N.W.2d at 330. The court explained that the brief proceeding was an outgrowth of the earlier public hearings that resulted in public orders dated April 4 and
April 21, and that the essence of the nonpublic proceeding on April 24 was the trial court’s explaining the
parameters of its written decision of April 21. The
court said: “This was an issue of evidentiary boundaries, similar to what would ordinarily and regularly be
discussed in chambers or at a sidebar conference – on
the record, but outside the hearing of the public.” Id.
Noting that the discussion took only minutes, was

App. 6
transcribed, and consumed only two-tenths of one percent of the trial transcript, the court held that Smith
received a public trial, and that his Sixth Amendment
rights were not violated. Id.
Smith sought a writ of habeas corpus under 28
U.S.C. § 2254. The district court denied his application
on the ground that the Minnesota court’s decision was
not contrary to, or an unreasonable application of,
clearly established federal law. See 28 U.S.C.
§ 2254(d)(1). We review that conclusion de novo.
II.
The Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA) addresses when an application
for a writ of habeas corpus from a state prisoner may
be granted with respect to a claim that was adjudicated on the merits in state court. 28 U.S.C. § 2254(d).
The provision at issue here states that an application
“shall not be granted” unless the adjudication “resulted
in a decision that was contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States.” Id. § 2254(d)(1).
A state court decision is “contrary to” clearly established federal law if the state court arrives at a conclusion opposite to that reached by the Supreme Court
on a question of law, or if the state court reaches the
opposite result in a case involving facts that are materially indistinguishable from relevant Supreme Court
precedent. Williams v. Taylor, 529 U.S. 362, 405 (2000).

App. 7
An “unreasonable application” of clearly established
federal law “occurs when a state court correctly identifies the governing legal standard but either unreasonably applies it to the facts of the particular case or
unreasonably extends or refuses to extend the legal
standard to a new context.” Munt v. Grandlienard, 829
F.3d 610, 614 (8th Cir. 2016); see Williams, 529 U.S. at
407. An “unreasonable application” is different from an
incorrect or erroneous application; a prisoner must establish that a state court’s adjudication was not only
wrong, but also objectively unreasonable, such that
“fairminded jurists” could not disagree about the
proper resolution. Yarborough v. Alvarado, 541 U.S.
652, 664 (2004); see Williams, 529 U.S. at 409-12.
Satisfying either prong under 28 U.S.C.
§ 2254(d)(1) is meant to be difficult, because AEDPA
“reflects the view that habeas corpus is a guard against
extreme malfunctions in the state criminal justice systems.” Harrington v. Richter, 562 U.S. 86, 102 (2011)
(internal quotation omitted). Relief is available only
where a state court’s ruling on a federal claim “was so
lacking in justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Id. at
103.
Smith argues that he meets this standard, because the Minnesota Supreme Court’s decision was
contrary to, and involved an unreasonable application
of, two Supreme Court decisions: Waller v. Georgia, 467
U.S. 39 (1984), and Presley v. Georgia, 558 U.S. 209
(2010) (per curiam). Waller held that the Sixth

App. 8
Amendment right to a “public trial” encompassed a
pretrial hearing on a motion to suppress evidence in a
criminal case. The Court explained that to justify a closure of such a hearing, “the party seeking to close the
hearing must advance an overriding interest that is
likely to be prejudiced, the closure must be no broader
than necessary to protect that interest, the trial court
must consider reasonable alternatives to closing the
proceeding, and it must make findings adequate to
support the closure.” 467 U.S. at 48. Because those criteria were not satisfied in Waller, the Court held that
there was a violation of the defendant’s right under the
Sixth Amendment.
In Presley, the Court declared that the right to a
public trial forbids the closure of jury selection in a
criminal case, and that a trial court must consider reasonable alternatives to closure even when they are not
offered by the parties. 558 U.S. at 213-14. Applying
Waller, the Court held that the Georgia trial court violated the defendant’s right to a public trial by closing
voir dire proceedings without sufficient justification.
The Minnesota Supreme Court’s decision is not
contrary to either Waller or Presley. Neither decision
addressed whether what the Minnesota court described as “administrative” proceedings – that is, “routine evidentiary rulings and matters traditionally
addressed during private bench conferences or conferences in chambers,” 876 N.W.2d at 329 – implicate the
Sixth Amendment right to a public trial. Waller considered whether a defendant’s right to insist on a public
trial “extends beyond the actual proof at trial,” and

App. 9
concluded that it encompasses a pretrial suppression
hearing in a criminal case. 467 U.S. at 44. The Court
observed that “suppression hearings often are as important as the trial itself,” and that “a suppression
hearing often resembles a bench trial,” in that “witnesses are sworn and testify, and of course counsel argue their positions.” Id. at 46-47. Presley held that the
right also encompasses the jury selection process and
the voir dire of prospective jurors. 558 U.S. at 213. The
Court cited a previous decision that relied on the long
history of public jury selection to hold that the press
and the public enjoy a First Amendment right to attend voir dire proceedings. Id.; see Press-Enterprise Co.
v. Superior Court of Cal., 464 U.S. 501, 505-10 (1984);
id. at 516 (Stevens, J., concurring). The brief nonpublic
proceeding in this case raises a different issue of law,
on facts that are materially distinguishable, so Smith
cannot show that the state court decision is contrary to
clearly established federal law. See Williams, 529 U.S.
at 405.
Smith highlights a statement in Presley that “Waller provided standards for courts to apply before excluding the public from any stage of a criminal trial.”
558 U.S. at 213 (emphasis added). He argues that the
Minnesota court’s decision is contrary to Waller, because the nonpublic proceeding at issue here occurred
at a “stage” of his trial, and the trial court did not apply
the Waller standards. But “clearly established Federal
law” under AEDPA refers to the holdings of the Supreme Court, not dicta, Williams, 529 U.S. at 412, and
the holdings of Waller and Presley were limited to

App. 10
suppression hearings and jury selection proceedings,
respectively. Neither decision addressed whether a defendant enjoys a Sixth Amendment right to public “administrative” proceedings of the type involved in this
case.
We also conclude that the Minnesota court did not
unreasonably apply Waller and Presley in this case. It
is an open question whether a defendant’s right to a
public trial encompasses the sort of nonpublic proceeding at issue here. Neither Waller’s bench trial analogy
nor the historical pedigree of openness cited in Presley
applies to a trial judge’s articulation of an evidentiary
ruling. The Fifth Circuit, for example, has rejected a
claim that proceedings in chambers and at private
bench conferences violate the Sixth Amendment.
United States v. Norris, 780 F.2d 1207 (5th Cir. 1986).
The court held that the concerns expressed in Waller
were not implicated by nonpublic proceedings that consisted of “arguments of counsel and rulings by the
court on technical legal questions.” Id. at 1210. The
Minnesota court also identified decisions rejecting
public-trial claims for certain evidence-related proceedings, such as an inquiry into whether a witness
would refuse to testify, State v. Reed, 352 P.3d 530, 542
(Kan. 2015), and consideration of an offer of proof.
United States v. Vázquez-Botet, 532 F.3d 37, 51-52 (1st
Cir. 2008). Cf. Richmond Newspapers, Inc. v. Virginia,
448 U.S. 555, 598 n.23 (1980) (Brennan, J., concurring
in the judgment) (“[W]hen engaging in interchanges at
the bench, the trial judge is not required [by the First
Amendment] to allow public or press intrusion upon

App. 11
the huddle. Nor does this opinion intimate that judges
are restricted in their ability to conduct conferences in
chambers, inasmuch as such conferences are distinct
from trial proceedings.”).
Whatever the force of Smith’s argument for extending Waller and Presley to cover the episode in this
case and similar proceedings, “fairminded jurists could
disagree” with his contention. Yarborough, 541 U.S. at
664. It was not objectively unreasonable for the Minnesota Supreme Court to deem it constitutional under
the Sixth Amendment for the trial court to explain the
parameters of an earlier public order on evidentiary issues in a brief nonpublic proceeding before the jury
was sworn.
*

*

*

The judgment of the district court is affirmed.

App. 12
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
BYRON DAVID SMITH,
PETITIONER,

Case No. 17-cv-673
(JRT/TNL)
REPORT AND
RECOMMENDATION

v.
MICHELLE SMITH,
WARDEN, MINNESOTA
CORRECTIONAL
FACTILITY –
OAK PARK HEIGHTS,

(Filed Dec. 7, 2017)

RESPONDENT.
Steven J. Meshbesher, Meshbesher & Associates, P.A.,
10 South Fifth Street, Suite 225, Minneapolis MN
55402, and Adam T. Johnson, Lundgren & Johnson,
P.S.C., 101 Fifth Street East, Suite 1700, Saint Paul
MN 55101 (for Petitioner Byron David Smith); and
Brent D. Wartner, Assistant Washington County Attorney, Washington County Attorney’s Office, 15015 62nd
Street North, P.O. Box 6, Stillwater MN 55082 (for
Respondent Michelle Smith).
This matter is before the Court, United States
Magistrate Judge Tony N. Leung, on a petition pursuant to 28 U.S.C. § 2254 for a writ of habeas corpus.
(ECF No. 4). This action has been referred to the undersigned for a report and recommendation to the
Honorable John R. Tunheim, Chief Judge for the

App. 13
United States District Court for the District of Minnesota, under 28 U.S.C. § 636 and Local Rule 72.2(b).
Based on all the files, records, and proceedings herein,
and for the reasons set forth below, this Court recommends that the petition be denied.
I.

PROCEDURAL
GROUND

AND

FACTUAL

BACK-

A. The Thanksgiving Day 2012 Shootings
During the fall of 2012, Petitioner Byron David
Smith “was the victim of a series of burglaries at his
home.” State of Minnesota v. Smith, 876 N.W.2d 310,
317 (Minn. 2016). The police were unable to determine
who was responsible. Id. So, before midday on Thanksgiving Day, November 22, 2012, Smith moved his
vehicle down the street from his home, entered surreptitiously through his home’s rear entrance, and went
into his basement and started a digital audio recorder.
Id. Smith was seated in a reading chair with “a novel,
a water bottle, and some snack bars” and was “facing
the side of the basement stairwell.” Id. Smith had a
nine-shot revolver on his belt clip and “[s]teps away”
from where Smith sat was his loaded mini-14 rifle. Id.
Running in an adjacent basement workroom was an
outdoor video surveillance system comprised of “four
security cameras placed around the exterior of Smith’s
home.” Id.
At 12:33 p.m., Nicholas Brady “approached Smith’s
house, looked into the windows, and tried the doorknobs.” Id. “Smith heard the doorknobs rattling, saw a

App. 14
shadow in front of the picture window in the basement,
and listened as Brady walked across the deck.” Id.
Brady then broke the glass of Smith’s bedroom window
and entered Smith’s home. Id. Approximately two
minutes later, Brady “approached the basement stairs”
with Smith waiting below. Id. at 317–18. “As Brady
descended the stairs, Smith saw Brady’s feet, his
knees, and then his hip. Smith shot Brady in the chest
with the rifle.” Id. at 318. “Smith shot Brady a second
time. Brady tumbled down to the basement floor, face
up. Three seconds later, at close range, Smith shot the
groaning Brady. The bullet went through Brady’s hand
and then through the side of his head. Smith said to
Brady, ‘You’re dead.’ ” Id. Smith then grabbed a “tarp
from near the basement fireplace” and “put Brady on
the tarp and dragged him to the adjoining workroom.”
Id. Smith reloaded his rifle. Id.
About ten minutes after Brady entered Smith’s
home, and eight minutes after the shooting, “Haile
Kifer entered Smith’s house,” quietly calling out
“Nick.” Id. Kifer heard no response, so she “started
down the basement stairs,” again calling out for Brady.
Id. As with Brady, “Smith fired when he saw Kifer’s
hips, but before he saw her hands.” Id. Kifer, who was
shot at “point blank range,” fell down the stairs, with
Smith attempting to “shoot her again, but his rifle
jammed.” Id.
Smith commented, “Oh, sorry about that.”
Kifer exclaimed, “Oh my God!” Smith pulled
out his revolver and shot her. Amidst Kifer’s
screams, Smith shot her a third time and a

App. 15
fourth time. Smith said, “You’re dying!” Kifer
screamed. Smith shot her a fifth time. Calling
her “bitch,” Smith dragged Kifer into the
workroom and placed her on the tarp on top of
Brady’s body. But Kifer was not yet dead, so
Smith shot her a sixth and final time.
Id. Smith later called it “a good clean finishing shot.”
Id. at 320.
Smith then stayed in his house for five hours following the shootings. Id.at 318. Smith’s digital audio
record captured him talking to himself. Id. at 318–19
(detailing Smith’s various statements). Smith did not
call law enforcement on November 22. Id. at 319.
The following day, Smith asked his neighbor to
contact an attorney and, later, to contact the sheriff ’s
office because “he had solved the break-ins in the
neighborhood.” Id. Once law enforcement arrived and
approached Smith’s house, Smith came outside with
his hands up and said he needed to tell them something. Id. Smith led law enforcement into his home,
explaining that “he was a victim of previous burglaries,
the most recent occurring the day before, on Thanksgiving.” Id. Smith showed officers the broken glass in
his bedroom. Id. Smith then “told the officers he needed
to show them something in the basement,” where they
saw the bodies of Kifer and Brady on the tarp. Id.
Smith was arrested and brought to the sheriff ’s office
for questioning. Id. at 319–20.

App. 16
B. State District Court Proceedings
Smith was charged via criminal complaint with
two counts of second-degree murder. Id. at 321. A
grand-jury then indicted Smith on two-counts of
first-degree premeditated murder. Id. Smith moved
to dismiss the indictment, which the district court
denied. Id.
“A major theory of Smith’s defense was that, in
shooting Brady and Kifer, he was acting to defend his
home against burglars whom he believed might be
armed and dangerous.” Id. at 337–38 (Stras J., concurring). On March 25 and April 17, 2014, the district
court held pretrial hearings which were open to the
public. Id. at 327, 330, 338. The district court heard
“motions in limine, including the issue of the extent to
which Smith could offer evidence of the previous burglaries of his house.” Id. at 327. At the hearing, Smith
argued that he should be able to call three witnesses
at trial to testify: Brady’s mother and Brady’s friends,
C.K. and J.K., both of whom allegedly had been involved in previous burglaries with Brady. Id. at 327,
338. “Defense counsel discussed Brady’s alleged co-participants by name at the hearing, so those names were
in the public record.” Id. at 327.
Following the April 17, 2014 pretrial hearing, the
court next convened on April 21; voir dire had been
completed, but the jury had not yet taken its final
oath.1 Id. at 327, 338. April 21, 2014 was “the day the
1

Smith and Respondent agree that jury voir dire for trial
began on April 14, 2014 and continued through April 16, 2014.

App. 17
parties would present opening statements and witnesses to the jury.” Id. at 327. The “deputy court administrator called the case” and the “court then closed
the courtroom to all except the attorneys, the defendant, and court staff.” Id. The district court noted, on
the record, that: “We have just cleared the courtroom
just for a quick moment from the spectator gallery.” Id.
Smith’s attorneys objected to the closure, stating:
“Your Honor, this is a—I thought about the
court’s suggestion, and I would ask the court
to reconsider.” Defense counsel asked that the
public be allowed to be present, including media, because “[t]o not allow that would infringe upon the freedom of the public to be
present as well as the free press. [Smith] has
that right to a public trial.”
Id. The district court
proceeded to discuss the ‘pretrial ruling of the
court’ and advised the parties and Smith that
the court had ruled to exclude some of the evidence of Brady’s prior bad acts. As part of the
ruling, the court explained that defense counsel could not “disclose the names of [J.K., C.K.]
or Brady involved in prior burglaries before
November 22, 2012.” The court stated that the
evidence was inadmissible because Smith did

(ECF No. 13, at 5; ECF No. 2, at 2; see also Resp’t Ex. C, at 753:9–
754:11, ECF No. 12) (administering final oath to jury)); Smith,
876 N.W.2d at 328, 338 (noting that the jury arrived on April 21,
2014 following the courtroom closure to be immediately sworn
and hear opening statements).

App. 18
not know the identity of those who broke into
his home before Thanksgiving.
Id. After discussing its pretrial ruling, the district
court provided its reasoning for closing the courtroom:
And for that reason—that was the reason that
the court is not allowing the press in for this
ruling, because otherwise it could be printed,
and indeed, while the jurors hopefully will
follow the admonition not to read or hear
anything in the press and TV and such in the
meantime while this case is pending, certainly
the media would publish and print the substance of the court’s pretrial ruling, and then
of course it runs the risk of getting to the jury
if for some reason they don’t adhere to their
oath.
Id. Following a discussing concerning whether Smith
could call C.K. as a witness, the courtroom was reopened. Id. at 327–28.
Immediately following the closed proceeding, at
10:00 a.m., “the judge filed a written order on the motion in limine heard on April 17 and then discussed
briefly in the closed courtroom.” Id. at 328.2 The
order
ruled that evidence of prior bad acts by Brady
or Kifer, of which Smith was not aware at the
time of the shooting, would be inadmissible at
trial. The order explained that ‘insofar as the
2

The parties each provided this Court a copy of the April 21,
2014 order. (Resp’t Ex. B; ECF No. 6).

App. 19
[evidence that Smith was the victim of prior
burglaries occurring before the shooting, that
forcible entry was made, and that weapons
were taken that were not recovered at the
time of the shooting] may be received through
the testimony of . . . law enforcement agents,
there will be no need to seek its admission
through more prejudicial means (i.e., through
the testimony of Brady’s mother or of a perpetrator of the prior break-ins).’
Id. (first alteration in original). The order did not name
J.K. or C.K., id., “therefore [it] provided less information to the public than would have otherwise been
available had the courtroom been open that morning,”
id. at 338.3 At 10:03 a.m., the jury entered the courtroom to be sworn and to hear opening statements. Id.
at 328, 338.
At trial, Smith’s main defenses were that he used
reasonable force in defense of himself and his dwelling.
Id. at 321; id. at 337–38. Following trial, a jury found
Smith guilty of two counts of second-degree murder
and two counts of first-degree premeditated murder.
Id. at 321. The district court convicted Smith of two
counts of first-degree premeditated murder and sentenced him to two concurrent life sentences without
the possibility of release. Id. Smith appealed, but that
appeal was stayed pending a restitution hearing. Id.
Following the conclusion of the restitution hearing and
3

Moreover, the April 21, 2014 order does not specifically tie
itself to the closed proceeding occurring on April 21, 2014, other
than being filed on the same day. Rather, it makes sole reference
to the April 17, 2014 pretrial hearing. (Resp’t Ex. B, at 1).

App. 20
the issuance of a restitution order by the district court,
Smith’s appeal was reinstated. Id.
C. Appeal to the Minnesota Supreme Court
On direct appeal to the Minnesota Supreme Court,
Smith argued, inter alia, that the district court erred
“when it briefly closed the courtroom to spectators and
the press.” Id. Smith asserted the closed proceeding
violated his right to a public trial under the Sixth
Amendment to the U.S. Constitution and its state
counterpart, Article I, Section 6 of the Minnesota Constitution. Id. at 328. Smith argued that, were the
Court to consider the four factors described by Waller
v. Georgia, 467 U.S. 39 (1984), it would find his Sixth
Amendment right was violated. Smith, 876 N.W.2d at
329.
The Minnesota Supreme Court never reached
Waller. Instead, it found that no Sixth Amendment closure occurred in Smith’s case. The Minnesota Supreme
Court noted it has
previously recognized that “the right to a
public trial is not an absolute right.” [State v.
Fageroos, 531 N.W.2d 199, 201 (Minn. 1995)].
Some situations warrant restrictions on
public access, [State v. Taylor, 869 N.W.2d 1,
10 (Minn. 2015)], and other courtroom restrictions do not implicate a defendant’s right
to a public trial. Id. at 11 (citing [State v.
Brown, 815 N.W.2d 609, 617 (Minn. 2012)]). In
[State v.] Lindsey, for example, we determined
that some closures are “ ‘too trivial to amount

App. 21
to a violation of the [Sixth] Amendment.’ ” 632
N.W.2d [652,] 660–61 [Minn. 2001] (alteration
in original) (quoting Peterson v. Williams, 85
F.3d 39, 42 (2d Cir. 1996)). Other nonpublic
proceedings simply may not implicate the
Sixth Amendment right to a public trial, depending on the nature of the proceeding.
Smith, 876 N.W.2d at 329.
The Minnesota Supreme Court went on to note
that, in Waller,
the United States Supreme Court made clear
that a suppression hearing is of comparable
status to a trial. But courts have distinguished suppression hearings from other
“administrative” proceedings that do not implicate the Sixth Amendment right to a public
trial. Contrary to what the “administrative”
label suggests, such proceedings are not limited to purely administrative procedures before the court, such as scheduling. Instead,
courts have also treated routine evidentiary
rulings and matters traditionally addressed
during private bench conferences or conferences in chambers as routine administrative
proceedings. [United States] v. Norris, 780
F.2d 1207, 1209–11 (5th Cir. 1986); State v.
Hicks, 837 N.W.2d 51, 61 (Minn. [Ct.] App.
2013), aff ’d on other grounds, 864 N.W.2d 153
(Minn. 2015). It is the type of proceeding, not
the location of the proceeding, that is determinative. See [State v. Everson, 749 N.W.2d 340,
352 (Minn. 2008)] (explaining how the courtroom was transformed into the jury room by

App. 22
the judge’s instructions); Hicks, 837 N.W.2d at
60–61 (determining that the district court
held a “chambers conference” in the courtroom).
Smith, 876 N.W.2d at 329.
The court continued, relying upon Norris, noting
that
[i]n administrative proceedings, “[n]on-public
exchanges between counsel and the court on
such technical legal issues and routine administrative problems do not hinder the objectives
which the Court in Waller observed were fostered by public trials.” Norris, 780 F.2d at 1210.
In contrast to a suppression hearing, these administrative exchanges “ordinarily relate to
the application of legal principles to admitted
or assumed facts so that no fact finding function is implicated. A routine evidentiary ruling is rarely determinative of the accused’s
guilt or innocence.” Id. at 1210. Additionally,
“such evidentiary rulings ordinarily pose no
threat of judicial, prosecutorial, or public
abuse that a public trial is designed to protect
against.” Id. at 1210–11.
Smith, 876 N.W.2d at 329–330. The Minnesota Supreme
Court cited examples where “courts have allowed nonpublic proceedings for evidence-related proceedings,”
including “deciding whether a witness will testify under threat of contempt,” “determining the scope of
witness immunity,” “sidebar conferences on evidentiary rulings,” and “consideration of offers of proof.” Id.
at 330. (citations omitted). The court also relied on its

App. 23
own precedent where it has “distinguished between
the key phases of trial, on the one hand, and the concept of bench and chambers conferences, on the
other. . . . [B]ench and chambers conferences may occur,
so long as a record is made and the record is available
to the press and the public.” Id. (citing Minneapolis
Star & Tribune Co. v. Kammeyer, 341 N.W.2d 550, 560
(Minn. 1983)).
Ultimately, the Minnesota Supreme Court held
“the district court’s nonpublic proceeding was administrative in nature and did not constitute a closure implicating Smith’s Sixth Amendment right to a public
trial.” Smith, 876 N.W.2d at 330. The court reasoned
that
The brief proceeding was an outgrowth of two
previous public hearings, held on March 25
and April 17, on the subject of evidence of
other burglaries. These hearings resulted in
public orders dated April 4 and April 21. The
essence of the nonpublic proceeding was the
court explaining the parameters of its April 21
written decision. This was an issue of evidentiary boundaries, similar to what would ordinarily and regularly be discussed in chambers
or at a sidebar conference—on the record, but
outside the hearing of the public. The discussion took only minutes, it was transcribed,
and it consumed only two-tenths of one percent of the trial transcript. Smith received a
public trial.

App. 24
Id. (footnotes omitted).4 The Minnesota Supreme
Court also included the following in a footnote: “Given
that the names [of J.K. and C.K] were in the public record as of April 17, we do not understand the district
court’s rationale for closing the proceeding to the public. But any error in doing so was not of constitutional
magnitude.” Id. at 330 n.8.
The Minnesota Supreme Court’s Sixth Amendment
reasoning was not unanimous; Minnesota Supreme
Court Associate Justice David Stras filed a concurring
opinion specifically concerning the courtroom closure.
Justice Stras noted that the “trial in this high-profile
case, which captured the attention of Minnesotans
because of its unusual facts and the deaths of two teenagers, is precisely the type of trial for which the protection of the Sixth Amendment is most critical.” Id. at
337 (citing In re Oliver, 333 U.S. 257, 268–71 (1948)).
Justice Stras wrote that the “district court’s reason for
the closure—to keep the media from printing the identity of the witnesses and the content of their potential
testimony—was plainly unacceptable in light of the
purposes underlying the Sixth Amendment publictrial right and the press’s First Amendment right of
access to the courts.” Smith, 876 N.W.2d at 337, 339.
Justice Stras identified three flaws that “underpin” the
district court’s reasoning: (1) “the concern that the
press might publish an account of a proceeding should
weigh in favor of keeping the courtroom doors open, not
against it, because press coverage serves the important
4

The parties each provided this Court a copy of the April 4,
2014 order. (Resp’t Ex. A; ECF No. 5).

App. 25
structural safeguard of opening the judicial process to
public inspection;” (2) “the court’s reasoning applies to
every instance in which a court elects to conduct proceedings outside of the hearing of the jury: if the press
and the public are present for such proceedings, then
there is always the possibility that the information
might somehow reach the jury;” and (3) “the procedure
selected by the court—closure of the courtroom—was
unlikely to achieve its desired effect.” Id. at 340–41.
Accordingly, if Justice Stras “were to apply the Waller
factors to the courtroom closure in this case, there is
little doubt that the closure would fail them.” Id. at 341.
Nevertheless, Justice Stras concluded that the closure in Smith’s case did not violate the Sixth Amendment because he was “unconvinced that the closure
here occurred during Smith’s ‘trial.’ ” Id. at 337. Justice
Stras described “[t]he most analytically difficult question in this case is whether the district court’s explanation of a pretrial evidentiary ruling constitutes a
part of the ‘trial’ to which the public-trial right attaches.” Id. at 341. He expressed reticence to follow the
majority’s acceptance of the Fifth Circuit’s approach in
Norris to the extent that it drew a constitutional line
by not extending “the Sixth Amendment public-trial
right to discussions of routine evidentiary matters and
other administrative tasks” Id. at 342. Rather, Justice
Stras concluded that “the relevant question is whether
a criminal proceeding resembles, and thereby possesses the characteristics of, a bench or jury trial.” Id.
at 343. Following this, he concluded “nothing . . . occurred during the brief hearing on the morning of April

App. 26
21, 2014 that resembled a bench or jury trial.” Id. The
“trial-like aspects of the proceedings—specifically, the
consideration of witness testimony and the arguments
of counsel—occurred during a hearing in open court on
April 17, 2014. . . .” Id. Thus, even though Justice Stras
believed “the district court should not have closed the
courtroom,” he could not “conclude under these facts
that the closure violated Smith’s rights.” Id.
D. Federal Habeas Petition
Smith sought habeas relief pursuant to 28 U.S.C.
§ 2254 on March 3, 2017. (ECF No. 4). Smith asserts he
is entitled to habeas relief because his Sixth Amendment right to a public trial was violated by reason of
the April 21, 2014 courtroom closure. Respondent
timely filed an answer. (ECF No. 12). While the petition
was under advisement, the parties submitted letters
on the application of Weaver v. Massachusetts, 137
S.Ct. 1899 (2017), to Smith’s petition. (ECF Nos. 19,
20).
II.

ANALYSIS
A. Legal Standard

The Antiterrorism and Effective Death Penalty
Act of 1996 (hereinafter “AEDPA”) governs a federal
court’s review of habeas corpus petitions filed by state
prisoners. Section 2254 is used by state prisoners alleging they are “in custody in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C.
§ 2254(a). A federal court may not grant habeas corpus

App. 27
relief to a state prisoner on any issue decided on the
merits by a state court unless the proceeding “(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States;” or it “(2) resulted in a decision that
was based on an unreasonable determination of the
facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d).
A state court decision is contrary to the Supreme
Court’s clearly established precedent “if the state court
applies a rule that contradicts the governing law set
forth in [the Supreme Court’s] cases” or “if the state
court confronts a set of facts that are materially indistinguishable from a decision of [the Supreme] Court
and nevertheless arrives at a result different from [Supreme Court] precedent.” Williams v. Taylor, 529 U.S.
362, 405–06 (2000). “An ‘unreasonable application’ of
Supreme Court precedent occurs when a state court
correctly identifies the governing legal standard but
either unreasonably applies it to the facts of the particular case or unreasonably extends or refuses to
extend the legal standard to a new context. Munt v.
Grandlienard, 829 F.3d 610, 614 (8th Cir. 2016) (citing
Williams, 529 U.S. at 407). “In other words, it is not
enough . . . to conclude that, in [the court’s] independent judgment, [it] would have applied federal law
differently from the state court; the state court’s application must have been objectively unreasonable.”
Rousan v. Roper, 436 F.3d 951, 956 (8th Cir. 2006).

App. 28
The Sixth Amendment provides that “the accused
shall enjoy the right to a . . . public trial” in all criminal
prosecutions. U.S. CONST. amend VI. The Sixth Amendment right to a public trial helps ensure “that judge
and prosecutor carry out their duties responsibly” and
“encourages witnesses to come forward and discourages perjury.” Waller, 467 U.S. at 46. This right “to an
open courtroom protects the rights of the public at
large, and the press, as well as the rights of the accused.” Weaver, 137 S.Ct. at 1910. The right to an open
trial “may give way in certain cases to other rights or
interests, such as the defendant’s right to a fair trial or
the government’s interest in inhibiting disclosure of
sensitive information.” Waller, 467 U.S. at 45. “Such
circumstances will be rare, however, and the balance of
interests must be struck with special care.” Id. According to the Supreme Court:
the party seeking to close the hearing must
advance an overriding interest that is likely
to be prejudiced, the closure must be no
broader than necessary to protect that interest, the trial court must consider reasonable
alternatives to closing the proceeding, and it
must make findings adequate to support the
closure.
Id. at 48; accord Press-Enterprise Co. v. Superior Ct. of
Cal., 464 U.S. 501, 510 (1984) (“The presumption of
openness may be overcome only by an overriding interest based on findings that closure is essential to preserve higher values and is narrowly tailored to serve
that interest. The interest is to be articulated along

App. 29
with findings specific enough that a reviewing court
can determine whether the closure order was properly
entered.”). The Sixth Amendment right to a public
trial clearly extends to pretrial suppression hearings,
Waller, 467 U.S. at 46, 48, and jury selection, Presley v.
Georgia, 558 U.S. 209, 213 (2010) (per curiam). “[V]iolation of the right to a public trial is a structural error,”
but “it is subject to exceptions.” Weaver, 137 S.Ct. at
1908–09.
B. AEDPA Requires Denial of Habeas Relief
Here, the Minnesota Supreme Court found the
courtroom closure did not implicate Smith’s Sixth
Amendment right. Rather, the Minnesota Supreme
Court, relying upon its own precedent, buttressed by
the Fifth Circuit’s Norris decision, held the closure did
not occur during Smith’s trial, but as an offshoot of a
pretrial proceeding and, according to the rationale of
the majority, was “administrative” in nature. Thus, the
Minnesota Supreme Court did not address the Waller
factors.
Smith disputes this characterization of the closure, arguing that the closure occurred during trial because jury selection had been completed and opening
statements were imminent. As such, Smith asserts
the closure was not “administrative” and that Waller
applies in full force. It follows, Smith argues, that in
failing to apply Waller, the Minnesota Supreme Court’s
decision was contrary to clearly established Federal
law as determined by the Supreme Court of the United

App. 30
States. See Lafler v. Cooper, 566 U.S. 156, at 173 (2012)
(identification of correct legal claim but failure to apply
appropriate standard constitutes a decision contrary
to clearly established federal law).
Here, were this a de novo review, the question of
whether Smith’s Sixth Amendment rights were violated may well be debatable and, depending on the
outcome of that debate, possibly even result in a different outcome. This is not, however, a direct appeal
where this Court addresses the issue de novo. See Irby
v. Smith, Case No. 15-cv-1997 (PJS/TNL), 2016 WL
3255019, at *2 (D. Minn. June 13, 2016). Rather, this
is a habeas proceeding where the question is not
whether Smith’s Sixth Amendment rights were violated, but whether the Minnesota Supreme Court’s
conclusion that Smith’s Sixth Amendment rights were
not violated was “contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United
States.” 28 U.S.C. § 2254(d)(1); Irby, 2016 WL 3255019,
at *2. The “ ‘unreasonable application’ of those holdings must be ‘objectively unreasonable,’ not merely
wrong; even ‘clear error’ will not suffice.” White v.
Woodall, 134 S.Ct. 1697, 1702 (2014) (citations and
quotations omitted).
This difficult hurdle requires that “a state prisoner must show that the state court’s ruling on the
claim being presented in federal court was so lacking
in justification that there was an error well understood
and comprehended in existing law beyond any possibility for fairminded disagreement.” Harrington v.

App. 31
Richter, 131 S.Ct. 770, 786–87 (2011). Moreover, the
error must be clear from Supreme Court precedent
existing at the time of the state court’s decision; it is
not enough for the state court decision to conflict with
precedent of the federal courts of appeal. Lopez v.
Smith, 135 S.Ct. 1, 2 (2014) (“We have emphasized,
time and again, that [AEDPA] prohibits the federal
courts of appeals from relying on their own precedent
to conclude that a particular constitutional principle is
‘clearly established.’ ”). Even then, the state court’s decision must conflict with a holding of the Supreme
Court; a conflict with dicta is insufficient to support habeas relief. Williams, 529 U.S. at 412 (“clearly established Federal law” means “the holdings, as opposed to
the dicta, of this Court’s decisions as of the time of the
relevant state-court decision”).
Under AEDPA’s strict standard, Smith’s claim
cannot succeed. The Minnesota Supreme Court’s decision does not conflict with any holding of the United
States Supreme Court for the simple reason that the
highest court of this nation has not clearly addressed
whether the Sixth Amendment applies to pretrial
hearings on, or proceedings related to, motions in
limine. To be fair, Waller clearly held that the Sixth
Amendment extends to pretrial suppression hearings.
The closure here, though, as determined by the Minnesota Supreme Court, occurred as part of a pretrial proceeding in preparation of trial, before the second oath
by the jury at which time jeopardy attaches, and before
opening statements and testimony of trial witnesses.
While Smith disputes the characterization of the

App. 32
closure as occurring during a pretrial proceeding, arguing that it took place during trial or a proceeding
that was similar enough to trial or a suppression hearing to constitute one or the other, the timing of the
closure is undisputed. Under AEDPA, “a determination
of a factual issue made by a State court shall be presumed to be correct.” 28 U.S.C. § 2254(e)(1). Thus, this
Court is operating under the Minnesota Supreme
Court’s conclusion that the closure occurred during a
pretrial proceeding. The United States Supreme Court
has not addressed whether the Sixth Amendment applies to a pretrial motion hearing, or proceeding related thereo, akin to a hearing on motions in limine.
Thus, the Minnesota Supreme Court was not objectively unreasonable in deciding not to apply Waller to
the closure at issue here.
C. Waller, Were it Applicable, Would Invalidate this Courtroom Closure
While this Court recommends that Smith’s habeas
petition be denied, this is not to say that the closure
in Smith’s case was appropriate beyond debate. The
state district court offered a singular reason for its
sua sponte, complete courtroom closure: that the media
might publish the substance of the court’s pretrial ruling which could then be seen by jurors despite admonitions to the contrary. This proffered reason runs
precipitously at, if not beyond, the boundaries and
spirit of the Sixth Amendment and Waller, if it were to
apply.

App. 33
To being with, the trial court’s sole articulated
reason was speculative. Indeed, this very justification
was discussed in Waller: “One of the reasons often advanced for closing a trial—avoiding tainting of the jury
by pretrial publicity, e.g., Press-Enterprise Co., 464 U.S.
at 510—is largely absent when a defendant makes an
informed decision to object to the closing of the proceeding.” Waller, 467 U.S. at 47 n.6. This “rationale is
further attenuated where . . . the jurors have been . . .
instructed not to discuss the case or read or view press
accounts of the matter.” Id.
Here, Smith objected to the closure of the courtroom, citing both his right to a public trial as well as
the rights of the public and press to witness the same.
The trial court itself acknowledged that the jurors had
been admonished not to learn about the case via the
press. The trial court’s reasoning is even more susceptible to challenge given that the names the state court
sought to prevent from spreading to the jurors were already in the public record by reason of the previous
pretrial hearings held on the topic. While noting that
it did “not understand the district court’s rationale
for closing the proceeding to the public,” Smith, 876
N.W.2d at 330 n.8, the Minnesota Supreme Court upheld the closure.5

5

Minnesota state case law concerning courtroom closures
has been criticized by members of the Minnesota Supreme Court
itself. See, e.g., State of Minnesota v. Brown, 815 N.W.2d 609,
622–27 (Minn. 2012) (Meyer J., dissenting) (would apply Waller
analysis); State of Minnesota v. Silvernail, 831 N.W.2d 594, 607–
09 (Anderson J., dissenting) (arguing that Brown should be

App. 34
Additionally, the trial court’s sole reason also may
arguably run afoul of the First Amendment rights of
the press and public to attend a criminal trial. See
Globe Newspaper Co. v. Superior Court for Norfolk
County, 457 U.S. 596 (1982). While the press, as a
nonparty amicus, raised a separate First Amendment
argument concerning the courtroom closure, the Minnesota Supreme Court declined to address the issue
on procedural grounds. Smith, 876 N.W.2d at 327 n.5.
Here, the courtroom closure prevented the press and
the public from observing a proceeding in a criminal
case—even though two previous pretrial hearings covering the same topics were public; the orders issued
as a result of those hearings were public; and the witnesses’ names were already available through those
previous hearings.
If the pretrial proceedings in this case were to be
likened to a pretrial suppression hearing as Smith

overruled due to “creeping courtroom closure”). This criticism is
reflected similarly in scholarly papers. See, e.g., Zach Cronen,
Behind Closed Doors: Expanding the Triviality Doctrine to Intentional Closures—State v. Brown, 40 WM. MITCHELL L. REV. 252
(2013) (arguing the “majority [in Brown] failed to properly analyze
the purpose and scope of the triviality doctrine when it was applied to intentional closures,” which “further muddies the analysis between trivial closures and harmless errors, running afoul
of U.S. Supreme Court precedent”); Daniel Levitas, Scaling
Waller: How Courts Have Eroded the Sixth Amendment Trial
Right, 59 EMORY L.J. 493, 533 (2009) (describing Minnesota as
“employ[ing] post hoc rationale[] justifying closure despite the
plain language of Waller that forbids it”).

App. 35
argues,6 a compelling argument could be made that
the trial court’s courtroom closure fails the Waller
analysis. As discussed, there was arguably no overriding interest likely to be prejudiced where the proposed
harm was purely speculative and already capable of
occurring by reason of the previous two public pretrial
hearings. Even accepting the trial court’s proffered
interest in closure, there is no indication there was
consideration of reasonable alternatives to complete
closure of the courtroom, such as repeating the admonition that the jurors not consume any media related to
Smith’s case. Nor is there indication that the state
district court considered a more narrowly-tailored closure, such as permitting family members of Smith and
the victims, or a representative press member, to remain during the pretrial proceeding in court. If the
law were to mandate application of Waller and, further,
if this Court were reviewing this matter de novo, it
would be inclined to find the courtroom closure here
was contrary to law.

6

As noted by the Supreme Court, pretrial suppression hearings “often are as important as the trial itself.” Waller, 467 U.S.
at 46, 48. Moreover, suppression hearings “often resemble[ ] a
bench trial: witnesses are sworn and testify, and of course counsel
argue their positions.” Id. at 47. Thus, the “need for an open proceeding may be particularly strong with respect to suppression
hearings” because a “challenge to the seizure of evidence frequently attacks the conduct of police and prosecutor.” Id. The public also holds a strong interest “in exposing substantial allegations
of police misconduct to the salutary effects of public scrutiny.” Id.

App. 36
D. Conclusion
But, notwithstanding these concerns and the analytical assumptions underlying them, Smith’s relief
under this federal habeas petition must be denied.
See Williams, 529 U.S. at 365 (a “federal habeas court
may not grant relief simply because it concludes in its
independent judgment that the relevant state-court
decision applied clearly established federal law erroneously or incorrectly. Rather, that application must also
be unreasonable.”); Yarborough v. Alvarado, 541 U.S.
652, 665 (2004). For AEDPA purposes, the Minnesota
Supreme Court’s decision cannot be deemed unreasonable where there is a lack of clear guidance from the
United States Supreme Court.
Moreover, the Minnesota Supreme Court, between
the majority and concurring opinions, analyzed whether
there was a Sixth Amendment public trial right violation using two different approaches that have taken
root in American jurisprudence, and, in the end, reached
the identical conclusion that no violation occurred. The
majority, relying upon Norris, found the closure here
occurred during an administrative proceeding not
subject to the Sixth Amendment. See United States v.
Vazquez-Botet, 532 F.3d 37 (1st Cir. 2008); United
States v. Valenti, 987 F.2d 708 (11th Cir. 1993); United
States v. Gurney, 558 F.2d 1202 (5th Cir. 1977). The
concurrence would not have applied the “administrative” label to the closure, but instead would apply a test
to determine if the proceeding had similar characteristics to a trial. See United States v. Thompson, 713 F.3d
388 (8th Cir. 2013); Rovinsky v. McKaskle, 722 F.2d 197

App. 37
(5th Cir. 1984). Regardless of the analytical framework
applied, the majority and concurrence reached the
same conclusion: that Smith’s Sixth Amendment right
was not violated.
III. CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11 of the Rules Governing § 2254
cases, the Court “must issue or deny a certificate of
appealability when it enters a final order adverse to
the applicant.” Federal district courts may not grant a
certificate of appealability unless the prisoner “has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To meet this standard, the petitioner must show “that the issues are
debatable among reasonable jurists, a court could resolve the issues differently, or the issues deserve further proceedings.” Flieger v. Delo, 16 F.3d 878, 882–83
(8th Cir. 1994).
The legal question concerning the courtroom closure
in this case is complex and precedent is sparse. “[C]ourtroom closure is to be avoided.” Weaver, 137 S.Ct. at 1909.
But, absent additional guidance from the Supreme
Court on the Sixth Amendment, lower courts, both
state and federal, have developed varying standards to
analyze courtroom closures. See Irby, 2016 WL 3255019,
at *2. Given these circumstances, it may be debatable
among reasonable jurists how the Supreme Court, or
the Eighth Circuit, would consider the courtroom closure
in Smith’s case under the Sixth Amendment. See id.
Thus, for purposes of appeal under 28 U.S.C. § 2253,
this Court concludes that it is likely that reasonable

App. 38
jurists would find the question of whether to deny
Smith’s habeas petition debatable depending on the
characterization of the closure that occurred in Smith’s
case, potentially resulting in a different resolution of
the issues. Moreover, given the particular importance
of the Sixth Amendment’s guarantees for a public trial,
along with the First Amendment implications of a
courtroom closure, especially in “this high-profile case,
which captured the attention of Minnesotans,” Smith,
876 N.W.2d at 337, this issue deserves further proceedings. Accordingly, this Court recommends that a certificate of appealability issue.
IV. RECOMMENDATION
Based on the foregoing, and all the files, records
and proceedings herein, IT IS HEREBY RECOMMENDED that:
1. The Petition under 28 U.S.C. § 2254
for Writ of Habeas Corpus by a Person in
State Custody, (ECF No. 4), be DENIED.
2.

A certificate of appealability issue.

Date:
December 7, 2017

s/ Tony N. Leung
Tony N. Leung
United States Magistrate Judge
District of Minnesota
Smith v. Smith
Case No. 17-cv-673 (JRT/TNL)
[Notice Omitted]

App. 39
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
BYRON DAVID SMITH,
Petitioner,
v.
MICHELLE SMITH,
Warden, MCF –
Oak Park Heights,
Respondent.

Civil No. 17-673
(JRT/TNL)
MEMORANDUM
OPINION AND ORDER
ADOPTING REPORT &
RECOMMENDATION
(Filed Aug. 3, 2018)

Adam T. Johnson, LUNDGREN & JOHNSON, PSC, 101 Fifth Street East, Suite 1700,
Saint Paul, MN 55101, and Steven J.
Meshbesher, MESHBESHER & ASSOCIATES, PA, 10 South Fifth Street, Suite 225,
Minneapolis, MN 55402, for petitioner.
Brent D. Wartner, WASHINGTON COUNTY
ATTORNEY’S OFFICE, 15015 Sixty-Second
Street North, Post Office Box 6, Stillwater,
MN 55082, for respondent.
Byron David Smith is serving two life sentences in
a Minnesota state prison for a 2012 double murder in
Little Falls, Minnesota. Smith brings this petition for
a writ of habeas corpus in federal court, arguing that
the Minnesota trial court violated his Sixth Amendment right to a public trial when the trial court closed
the courtroom to all spectators and the press for a
short period before opening statements were delivered.
Smith further argues – pursuant to the requirements

App. 40
of the Antiterrorism and Effective Death Penalty Act
of 1996 (“AEDPA”) – that the Minnesota Supreme
Court’s decision upholding his conviction was contrary
to, and an unreasonable application of, clearly established federal law. United States Magistrate Judge
Tony N. Leung issued a Report & Recommendation
(“R&R”), recommending that the Court deny Smith’s
petition. Smith objects to the R&R. Because the Court
will conclude that the Minnesota Supreme Court’s decision was neither contrary to, nor an unreasonable application of, clearly established federal law, the Court
will overrule Smith’s objections, adopt the R&R, and
deny Smith’s petition.
BACKGROUND
On Thanksgiving Day 2012, Byron Smith shot and
killed two teenagers who had broken into his home:
Nicholas Brady and Haile Kifer. State v. Smith, 876
N.W.2d 3 10, 317 (Minn. 2016). Smith was convicted of
two counts of first-degree murder in Minnesota state
court. Id. at 32 1. At trial, Smith maintained that the
shootings were a justified act of self-defense. Id. To
support his argument, Smith sought to introduce evidence that Brady had been involved in several prior
burglaries of Smith’s home. Id. at 327. Specifically,
Smith sought to call three witnesses to testify about
Brady’s alleged involvement: Brady’s mother and two
of Brady’s friends who were also allegedly involved in
the prior burglaries, J.K. and C.K. Id.

App. 41
The trial court permitted Smith to introduce evidence of prior burglaries of his home via the testimony
of law-enforcement agents. Id. at 328. But the court
prohibited Smith from introducing evidence that
Brady was associated with the prior burglaries because Smith had not known of Brady’s involvement at
the time of the shootings. Id. The trial court’s ruling
came in 2014 after two public hearings, held on March
25 and April 17, on the subject. Id. The first public
hearing resulted in a public order dated April 4. Id. at
330. In that April 4 order, the court reasoned that the
prior burglaries
“strike directly at the reasonableness of
[Smith’s] decisions in defending his person
and his dwelling. . . .” However, the fact that it
may have been Nicholas Brady who was involved in the previous burglaries contributes
nothing to [Smith’s] argument, for the reasonableness of [Smith’s] action and judgment
must be determined by his state of mind at
the time of the shooting, not by what was
learned after the event.
(Pet. Ex. 1 at 7, Mar. 3, 2017, Docket No. 5.) The April
4 order did not discuss whether Smith could call J.K.
and C.K. as witnesses. (See id. at 6-7) At the April 17
public hearing, Smith’s counsel “discussed Brady’s alleged co-participants [J.K. and C.K.] by name.” Smith,
876 N.W.2d at 327.
Smith’s trial was a “high-profile case, which captured the attention of Minnesotans because of its unusual facts and the deaths of two teenagers.” Id. at 337

App. 42
(Stras, J., concurring). On the morning of April 21 – the
day that opening statements were to be delivered and
after the jury had been selected – Smith’s case was
called, and the trial court then cleared all spectators
and the press from the courtroom. (See Resp’t Ex. C at
4, Mar. 31, 2017, Docket No. 12; Smith, 876 N.W.2d at
327-28 (majority opinion).) Smith’s counsel objected to
this courtroom closure.
Your Honor, this is a – I thought about the
court’s suggestion, and I would ask the court
to reconsider. This is a public facility. Mr.
Smith is on trial in a public courtroom, and I
ask to allow any of the public to be allowed to
be present, including media, if they choose. To
not allow that would infringe upon the freedom of the public to be present as well as free
press. He has that right to a public trial.
(Resp’t Ex. C at 4:11-19.) The court overruled Smith’s
objection and kept the courtroom closed so that the
court could explain to the parties and counsel the scope
of the court’s evidentiary ruling, including that there
was to be no mention of J.K. or C.K. by name.
And the pretrial ruling of the court was that
the defense had given notice that it . . . wants
to offer testimony from [J.K.] and [C.K.] about
their involvement in prior burglaries which, of
course, would have involved Nick Brady as
well a co-perpetrator. And the court has ruled
the . . . defendant will not disclose the names
of [J.K., C.K.] or Brady involved in prior burglaries. . . .

App. 43
(Id. at 4:20-5:6.) The court then explained its reasons
for closing the courtroom:
And for that reason – that was the reason that
the court is not allowing the press in for this
ruling, because otherwise it could be printed,
and indeed, while the jurors hopefully will follow the admonition not to read or hear anything in the press and TV and such in the
meantime while this case is pending, certainly
the media would publish and print the substance of the court’s pretrial ruling, and then
of course it runs the risk of getting to the jury
if for some reason they don’t adhere to their
oath.
(Id. at 6:4-14.)
Immediately after the closure, the court filed a second public order, “reiterat[ing] that evidence of prior
bad acts by Nicholas Brady or Haile Kifer, of which
[Smith] was unaware at the time of the shooting, shall
be inadmissible at trial,” and that while evidence of the
prior burglaries “may be received through the testimony of . . . law enforcement agents, there will be no
need to seek its admission through more prejudicial
means (i.e., through the testimony of Brady’s mother
or of a perpetrator of the prior break-ins).” (Pet. Ex. 2
at 1, 3, Mar. 3, 2017, Docket No. 6; see also Smith, 876
N.W.2d at 328.) Three minutes after the court filed this
second order, the court reopened the courtroom, swore
in the jury, gave preliminary instructions, and the parties then gave their opening statements. (Resp’t Ex. C
at 8-9; Smith, 876 N.W.2d at 328.)

App. 44
The jury found Smith guilty of murder, and the
trial court sentenced him to two life sentences. Smith,
876 N.W.2d at 32 1. Smith appealed his conviction, arguing that the trial court’s closure violated his Sixth
Amendment right to a public trial. Id. at 327. The Minnesota Supreme Court upheld his conviction, finding
that the closure did not implicate Smith’s Sixth
Amendment right because the closure was “administrative” in nature. Id. at 327-30.1
This habeas petition in federal court followed.
DISCUSSION
I.

STANDARD OF REVIEW

Upon the filing of a report and recommendation by
a magistrate judge, a party may “serve and file specific
written objections to the proposed findings and recommendations.” Fed. R. Civ. P. 72(b)(2); accord D. Minn.
LR 72.2(b)(1). “The district judge must determine de
novo any part of the magistrate judge’s disposition that
has been properly objected to.” Fed. R. Civ. P. 72(b)(3).
II.

AEDPA

AEDPA governs the Court’s review of Smith’s habeas petition. 28 U.S.C. § 2254. Habeas review is narrow and is “limited to deciding whether a conviction
violated the Constitution, laws, or treaties of the
United States.” Estelle v. McGuire, 502 U.S. 62, 68
1

Smith thus exhausted his state-court remedies. See Minn.
Stat. § 590.01, subd. 1.

App. 45
(1991); see also 28 U.S.C. § 2254(a) (“[A] district court
shall entertain an application for a writ of habeas corpus . . . only on the ground that [the petitioner] is in
custody in violation of the Constitution or laws or treaties of the United States.”).
For federal claims adjudicated during a petitioner’s state-court proceedings, AEDPA is “highly deferential” to the state court’s decision on that federal
claim. Davis v. Ayala, 135 S. Ct. 2187, 2198 (2015).
AEDPA provides:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim . . . resulted in a decision that was contrary to, or
involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States.
28 U.S.C. § 2254(d)(1).2 AEDPA “was intended to be difficult to meet and only authorizes a federal habeas
court to issue the writ in cases where ‘there is no possibility fairminded jurists could disagree that the state
court’s decision conflicts with [the Supreme Court’s]
precedents.’ ” Shelton v. Mapes, 821 F.3d 941, 949 (8th
2

Smith does not argue that he is entitled to relief under
§ 2254(d)(2), i.e., that the state court’s decision was “based on an
unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” Instead, Smith argues
only that he is entitled to relief under § 2254(d)(1).

App. 46
Cir. 2016) (alteration in original) (quoting Harrington
v. Richter, 562 U.S. 86, 102 (201 1)).3 AEDPA’s highly
deferential scheme necessarily means that some constitutional violations will go unremedied, in favor of
“promoting ‘comity, finality, and federalism.’” Carey v.
Saffold, 536 U.S. 214, 220 (2002) (quoting Williams v.
Taylor, 529 U.S. 420, 436 (2000)).
The phrase “clearly established Federal law, as determined by the Supreme Court of the United States”
in § 2254(d)(1), “refers to the holdings, as opposed to
the dicta, of [the Supreme] Court’s decisions as of the
time of the relevant state-court decision.” Williams,
529 U.S. at 412. And the Supreme Court has cautioned
lower courts against “framing [its] precedents at . . . a
high level of generality.” Nevada v. Jackson, 569 U.S.
505, 512 (2013).
“A state court decision is ‘contrary to’ clearlyestablished federal law if the state court arrives at a
conclusion opposite to that reached by the United
States Supreme Court on a question of law.” Davis v.
Grandlienard, 828 F.3d 658, 666 (8th Cir. 2016) (citing
Williams, 529 U.S. at 405).4 “A state-court decision will
3

This opinion uses “Supreme Court” to refer to the Supreme
Court of the United States, in contrast to “Minnesota Supreme
Court.”
4
A state-court decision can also be “contrary to” clearly established federal law “if the state court confronts a set of facts
that are materially indistinguishable from a decision of [the Supreme Court] and nevertheless arrives at a result different from
[Supreme Court] precedent.” Williams, 529 U.S. at 406. Smith
does not argue that his case involves facts materially indistinguishable from a decision of the Supreme Court.

App. 47
certainly be contrary to [the Supreme Court’s] clearly
established precedent if the state court applies a rule
that contradicts the governing law set forth in [the Supreme Court’s] cases.” Williams, 529 U.S. at 405. “A
state court’s decision is not ‘contrary to . . . clearly established Federal law’ simply because the [state] court
did not cite [Supreme Court] opinions,” Mitchell v. Esparza, 540 U.S. 12, 16 (2003) (per curiam) (omission in
original) (quoting Early v. Packer, 537 U.S. 3, 8 (2002)),
or simply because the state-court decision “relied heavily on its own precedent,” Davis, 828 F.3d at 666.
“An ‘unreasonable application’ of Supreme Court
precedent occurs when a state court correctly identifies
the governing legal standard but either unreasonably
applies it to the facts of the particular case or unreasonably extends or refuses to extend the legal standard
to a new context.” Munt v. Grandlienard, 829 F.3d 610,
614 (8th Cir. 2016) (citing Williams, 529 U. S. at 407).
AEDPA’s “ ‘unreasonable application’ clause requires
the state court decision to be ‘objectively unreasonable,’ which demands the decision be more than incorrect or erroneous.” Davis, 828 F.3d at 666 (quoting
Lockyer v. Andrade, 538 U.S. 63, 75 (2003)). “The ‘objectively unreasonable’ standard is not satisfied even by
clear error.” Id.
If a state-court decision is contrary to or an unreasonable application of clearly established federal law,
“[a] federal court must then resolve the claim without
the deference AEDPA otherwise requires.” Panetti v.
Quarterman, 551 U.S. 930, 953 (2007); see Lafler v.
Cooper, 566 U.S. 156, 173 (2012).

App. 48
III. SIXTH AMENDMENT RIGHT TO A PUBLIC TRIAL
“In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial.” U.S. Const.
Amend. VI. The right to a public trial applies in both
state and federal court, In re Oliver, 333 U.S. 257, 273
(1948), and it “extends beyond the actual proof at trial,”
Presley v. Georgia, 558 U.S. 209, 212 (2010) (per curiam). It applies – at a minimum – to voir dire of prospective jurors and to pretrial hearings on motions to
suppress evidence. Id. at 213; Waller v. Georgia, 467
U.S. 39, 43 (1984).
“[T]he public-trial guarantee [is] . . . for the benefit
of the defendant.” Gannett Co. v. DePasquale, 443 U.S.
368, 380 (1979). It “encourages witnesses to come forward and discourages perjury,” keeps the jury “keenly
alive to a sense of their responsibility and to the importance of their functions,” ensures “that judge and
prosecutor carry out their duties responsibly,” and ensures that the defendant is “fairly dealt with and not
unjustly condemned.” Waller, 467 U.S. at 47. “The value
of openness lies in the fact that people not actually attending trials can have confidence that standards of
fairness are being observed; the sure knowledge that
anyone is free to attend gives assurance that established procedures are being followed and that deviations will become known.” Press-Enter. Co. v. Superior
Court of Cal., Riverside Cty., 464 U.S. 501, 508 (1984).5
5

Although Press-Enterprise is a First Amendment case, the
Supreme Court has incorporated Press-Enterprise into its Sixth
Amendment jurisprudence. See Waller, 467 U.S. at 46.

App. 49
“Essentially, the public-trial guarantee embodies a
view of human nature, true as a general rule, that
judges, lawyers, witnesses, and jurors will perform
their respective functions more responsibly in an open
court than in secret proceedings.” Estes v. Texas, 381
U.S. 532, 588 (1965) (Harlan, J., concurring).
The public-trial right is not absolute. It “may give
way in certain cases.” Waller, 467 U.S. at 45. “Closed
proceedings, although not absolutely precluded, must
be rare and only for cause shown that outweighs the
value of openness.” Press-Enter., 464 U.S. at 509.
Courts must take “special care” in those instances.
Waller, 467 U.S. at 45. In Waller, the Supreme Court
set out a four-factor test that a trial court must find
satisfied before closing the courtroom to the public:
[1] [T]he party seeking to close the hearing
must advance an overriding interest that is
likely to be prejudiced, [2] the closure must be
no broader than necessary to protect that interest, [3] the trial court must consider reasonable alternatives to closing the proceeding,
and [4] it must make findings adequate to
support the closure.
467 U.S. at 48 (adopting the Press-Enterprise factors
for Sixth Amendment analysis). And in Presley, the Supreme Court – in summarily reversing the Supreme
Court of Georgia – stated that trial courts must apply
the four-factor Waller test “before excluding the public
from any stage of a criminal trial.” 558 U.S. at 213-14.

App. 50
IV. SMITH’S PETITION
Smith argues that the Minnesota Supreme Court’s
decision concluding that the trial court did not violate
his Sixth Amendment right to a public trial was contrary to, and involved an unreasonable application of,
clearly established federal law.
A. Clearly Established Federal Law
At the time of the Minnesota Supreme Court’s decision in Smith’s case, there were two leading decisions
from the Supreme Court regarding a criminal defendant’s Sixth Amendment right to a public trial: Waller v.
Georgia, 467 U.S. 39 (1984), and Presley v. Georgia, 558
U.S. 209 (20 10).6
It is clearly established that – and the Minnesota
Supreme Court acknowledged that – a courtroom closure must satisfy the four-factor test from Waller to not
infringe on a criminal defendant’s Sixth Amendment
right to a public trial. Smith, 876 N.W.2d at 329 (citing
Waller, 467 U.S. at 48). It is also clearly established
that the right to a public trial can be implicated in proceedings outside the presentation of evidence and argument to the jury. United States v. Thompson, 713
F.3d 388, 392 (8th Cir. 2013) (“[I]t is clearly established
6

Weaver v. Massachusetts, 137 S. Ct. 1899 (2017), partially
concerns a criminal defendant’s Sixth Amendment right to a public trial. But the Supreme Court issued Weaver after the Minnesota Supreme Court issued the decision that Smith challenges
here. Thus, the Court does not consider Weaver in the determination of what law was clearly established at the time of the Minnesota Supreme Court’s decision. See Williams, 529 U.S. at 412.

App. 51
that the public trial right extends beyond actual proof
at trial.”). The Minnesota Supreme Court acknowledged the temporal breadth of the public-trial right,
noting that it “applies to all phases of trial,” “encompass[ing] preliminary hearings, voir dire, witness testimony, closing arguments, jury instructions, and
returning of the verdict.” Smith, 876 N.W.2d at 328-29
(citations omitted).
B. “Contrary to” Clearly Established Federal Law
Smith argues that the Minnesota Supreme Court’s
decision is contrary to clearly established federal law
because the Minnesota Supreme Court applied the incorrect legal rule to Smith’s claim.
1. The Rule Applied by the Minnesota
Supreme Court
Before the Court can determine whether the Minnesota Supreme Court applied a rule that contradicts
the Supreme Court’s governing law on the right to a
public trial, the Court must first determine what rule
of law the Minnesota Supreme Court applied.
After generally describing the public-trial right
and the four-factor Waller test, the Minnesota Supreme Court stated:
However, “before we can apply the Waller test
to determine if a closure is justified, we must
determine whether a [Sixth Amendment]

App. 52
closure even occurred.” We have previously
recognized that “the right to a public trial is
not an absolute right.” Some situations warrant restrictions on public access, and other
courtroom restrictions do not implicate a defendant’s right to a public trial. In Lindsey, for
example, we determined that some closures
are “ ‘ too trivial to amount to a violation of the
[Sixth] Amendment.’ ” Other nonpublic proceedings simply may not implicate the Sixth
Amendment right to a public trial, depending
on the nature of the proceeding.
Smith, 876 N.W.2d at 329 (alterations in original) (citations omitted).7 The court then went on to describe
when, in its view, certain proceedings are not subject
to the Sixth Amendment public-trial right.

7

The Minnesota Supreme Court was clear that, during
Smith’s trial, the courtroom was physically closed. The trial
court cleared the courtroom of all spectators, including the media.
It was a total and complete closure of the courtroom. Smith, 876
N.W.2d at 327 (“The court then closed the courtroom to all except
the attorneys, the defendant, and court staff.”). Although the Minnesota Supreme Court stated that no “closure” occurred, that
phrasing describes its holding that the closed proceeding during
Smith’s trial was not subject to the protection of the public-trial
right, not that the courtroom was not physically closed. Additionally, Smith’s case does not involve a “partial” closure. See generally United States v. Simmons, 797 F.3d 409, 413 (6th Cir. 2015)
(“Nearly all federal courts of appeals . . . have distinguished between the total closure of proceedings and situations in which a
courtroom is only partially closed to certain spectators.”); Thompson, 713 F.3d at 394-96 (“Whether a closure is total or partial . . .
depends not on how long a trial is closed, but rather who is excluded. . . .”).

App. 53
[C]ourts have distinguished suppression
hearings from other “administrative” proceedings that do not implicate the Sixth Amendment right to a public trial. Contrary to what
the “administrative” label suggests, such proceedings are not limited to purely administrative procedures before the court, such as
scheduling. Instead, courts have also treated
routine evidentiary rulings and matters traditionally addressed during private bench
conferences or conferences in chambers as
routine administrative proceedings. It is the
type of proceeding, not the location of the proceeding, that is determinative.
In administrative proceedings, “[n]on-public
exchanges between counsel and the court on
such technical legal issues and routine administrative problems do not hinder the objectives which the Court in Waller observed were
fostered by public trials.” In contrast to a suppression hearing, these administrative exchanges “ordinarily relate to the application
of legal principles to admitted or assumed
facts so that no fact finding function is implicated. A routine evidentiary ruling is rarely
determinative of the accused’s guilt or innocence.” Additionally, “such evidentiary rulings
ordinarily pose no threat of judicial, prosecutorial, or public abuse that a public trial is designed to protect against.”
Thus, courts have allowed nonpublic proceedings for evidence-related proceedings such as:
deciding whether a witness will testify under
threat of contempt; determining the scope of

App. 54
witness immunity; sidebar conferences on evidentiary rulings; and consideration of offers
of proof. We, too, have distinguished between
the key phases of trial, on the one hand, and
the concept of bench and chambers conferences, on the other. We have held that bench
and chambers conferences may occur, so long
as a record is made and the record is available
to the press and the public.
In articulating its rule, the Minnesota Supreme
Court relied on the “triviality” exception, which Minnesota adopted in 2001. Smith, 876 N.W.2d8 at 329 (citing
State v. Lindsey, 632 N.W.2d 652, 660-61 (Minn. 2001)).
The triviality exception grew out of Peterson v. Williams, 85 F.3d 39 (2d Cir. 1996),9 and its application in
Minnesota results in a holding of no public-trial violation for a courtroom closure if “the values sought to be
protected by a public trial were in fact protected.”

8

Smith, 876 N.W.2d at 329-30 (citations omitted) (citing
United States v. Vázquez-Botet, 532 F.3d 37, 51-52 (1st Cir. 2008);
Peterson v. Williams, 85 F.3d 39, 42 (2d Cir. 1996); United States
v. Norris, 780 F.2d 1207, 1209-11 (5th Cir. 1986); State v. Reed,
352 P.3d 530, 534-35, 542 (Kan. 2015); State v. Taylor, 869
N.W.2d 1, 11 (Minn. 2015);; State v. Brown, 815 N.W.2d 609, 616
(Minn. 2012); State v. Everson, 749 N.W.2d 340, 352 (Minn. 2008);
State v. Lindsey, 632 N.W.2d 652, 660-61 (Minn. 2001); State v.
Fageroos, 531 N.W.2d 199, 201 (Minn. 1995); Minneapolis Star &
Tribune Co. v. Kammeyer, 341 N.W.2d 550, 560 (Minn. 1983);
State v. Hicks, 837 N.W.2d 51, 60-61 (Minn. App. 2013), aff ’d on
other grounds, 864 N.W.2d 153 (Minn. 2015); People v. Olivero,
735 N.Y.S.2d 327, 328 (N.Y. App. Div. 2001); State v. Smith, 334
P.3d 1049, 1052-55 (Wash. 2014)).
9
Peterson was decided after Waller, but before Presley.

App. 55
Lindsey, 632 N.W.2d at 661.10 Minnesota sometimes refers to these closures as not being “true” closures. Id.
at 660. And Minnesota courts consider four factors
(distinct from the Waller factors) in determining
whether a closure is “too trivial to implicate the Sixth
Amendment,” State v. Zornes, 831 N.W.2d 609, 620
(Minn. 2013), or whether the closure is a “true closure,”
State v. Taylor, 869 N.W.2d 1, 11 (Minn. 2015). Those
factors are (1) whether the courtroom was ever
“cleared of all spectators”; (2) whether the trial “remained open to the general public and the press”; (3)
whether there was any “period of the trial in which
members of the general public were absent during the
trial”;11 and (4) whether the defendant, his or her family or friends, or any witness was at any time improperly excluded. Zornes, 831 N.W.2d at 620 (citing
Lindsey, 63 2 N.W.2d at 661.)
But the Minnesota Supreme Court did not apply
the triviality exception to the closure in Smith’s case to
find that no constitutional violation occurred. Rather,
the court applied its rule that the Sixth Amendment
public-trial right categorically does not apply to “administrative” proceedings. Smith, 876 N.W.2d at 329.
According to the Minnesota Supreme Court, the
10

The closure in Lindsey was not a total closure. 632 N.W.2d
at 661 (“At no time was the courtroom cleared of all spectators.”)
11
The relevance of this third factor – whether any members
of the public actually attended – is unclear. After all, part of the
benefit of a public trial is that “the sure knowledge that anyone is
free to attend gives assurance that established procedures are being followed and that deviations will become known.” Press-Enter., 464 U.S. at 508.

App. 56
public-trial right does not attach to certain proceedings during a criminal trial, “depending on the nature
of the proceeding.” Id. In deciding whether a proceeding is “administrative,” according to the court, relevant
characteristics of the proceeding include whether it involved “exchanges between counsel and the court on
. . . technical legal issues”; whether a “fact finding function is implicated” by the proceeding; and whether it is
“determinative of the accused’s guilt or innocence.” Id.
at 329-30. The Minnesota Supreme Court then noted
that other courts “have allowed nonpublic proceedings
for evidence-related proceedings.” Id. at 330.12
2. Whether the Minnesota Supreme
Court’s Decision is Contrary to
Clearly Established Federal Law
This Court has great difficulty squaring the Minnesota Supreme Court’s rule – and the triviality

12

The Minnesota Supreme Court also noted that it has allowed nonpublic “bench and chambers conferences . . . , so long as
a record is made and the record is available to the press and the
public.” Smith, 876 N.W.2d at 330 & n.7 (discussing two First
Amendment challenges to closures). This public-record requirement is understandable in the First Amendment context, but curious in the Sixth Amendment context because the Minnesota
Supreme Court’s rule is that the Sixth Amendment right categorically does not apply to these “administrative” proceedings. Moreover, a criminal defendant often consents to nonpublic bench and
chambers conferences. See, e.g., State v. Benton, 858 N.W.2d 535,
539-41 (Minn. 2015); see also Waller, 467 U.S. at 47 (holding the
public-trial right applies to suppression hearings closed “over the
objections of the accused”). Here, however, Smith objected.

App. 57
exception on which it relies – with the clearly established federal law of the Supreme Court of the United
States.
First, the triviality exception is inconsistent with
both Waller and Presley.13 Waller holds that the Sixth
Amendment right to a public trial applies to a suppression hearing and that “any closure of a suppression
hearing over the objections of the accused must meet
the tests set out in Press-Enterprise and its predecessors.” 467 U.S. at 43, 47. The Waller Court then articulated the four-factor test that “any closure . . . must
meet.” Id. at 47-48 (emphasis added). Although the Supreme Court has never considered the triviality exception, for a court to determine whether a closure was
“trivial” by considering “how seriously the values
served by the Sixth Amendment were undermined,”
Peterson, 85 F.3d at 43, is misaligned with Waller’s
holding: that the Waller four-factor test applies to “any
closure.” 467 U.S. at 47. Presley reiterated this point:
“Waller provided standards for courts to apply before
excluding the public from any stage of a criminal
trial.” 558 U.S. at 213 (emphasis added); see also PressEnter., 464 U.S. at 509 (“Closed proceedings . . . must
be rare and only for cause shown that outweighs the
value of openness.” (emphasis added)). Presley also
holds that trial courts must “consider alternatives to
13

The Eighth Circuit has not adopted the triviality exception. See United States v. Thunder, 438 F.3d 866, 867-68 (8th Cir.
2006) (“To withstand a defendant’s objection to closing a trial or
any part of one, an order directing closure must adhere to the
principles outlined in Press-Enterprise. . . .” (emphasis added));
see also Thompson, 713 F.3d at 394-96.

App. 58
closure even when they are not offered by the parties,”
and that the trial court’s Waller analysis “must ‘be articulated along with findings specific enough that a reviewing court can determine whether the closure order
was properly entered.’ ” Id. at 214-15 (quoting PressEnter., 464 U.S. at 510). For a reviewing court to determine that a trial court’s closure was “trivial” and thus
constitutional – without reviewing the trial court’s
Waller analysis (if any was performed) – runs counter
to Presley.
Further undermining the validity of the triviality
exception is its striking similarity to the pre-Crawford
test for violations of the Confrontation Clause (another
Sixth Amendment right), which the Supreme Court rejected over a decade ago. In Crawford v. Washington,
541 U.S. 36 (2004), the Supreme Court held that the
right of confrontation (and thus the right to cross examination) unequivocally applies to “testimonial”
statements, rejecting the view that the right of confrontation is satisfied if a statement has “adequate ‘indicia of reliability.’ ” 541 U.S. at 68-69 (overruling Ohio
v. Roberts, 448 U.S. 56 (1980)). The proper constitutional inquiry, said the Supreme Court, was into the
nature of the statement made, not its reliability.
Admitting statements deemed reliable by a
judge is fundamentally at odds with the
right of confrontation. To be sure, the [Confrontation] Clause’s ultimate goal is to ensure
reliability of evidence, but it is a procedural
rather than a substantive guarantee. It commands, not that evidence be reliable, but that

App. 59
reliability be assessed in a particular manner:
by testing in the crucible of cross-examination.
The Clause thus reflects a judgment, not only
about the desirability of reliable evidence (a
point on which there could be little dissent),
but about how reliability can best be determined.
Id. at 61. The evolution of the triviality exception
closely parallels the now-overruled, pre-Crawford “adequate indicia of reliability” test. Pre-Crawford, courts
looked to the “values” that the right of confrontation
was designed to protect: namely, reliability. Roberts,
448 U. S. at 66 (quoting California v. Green, 3 99 U. S.
149, 155 (1970)). Likewise, courts applying the triviality exception look to the “values furthered by the public
trial guarantee.” Peterson, 85 F.3d at 43. But looking
to the purposes or values of a categorical constitutional
right – rather than to the right itself – “replaces the
constitutionally prescribed method . . . with a wholly
foreign one.” Crawford, 541 U.S. at 62. “It is not
enough to point out that most of the usual safeguards”
are present “when the single safeguard missing is the
one the [Constitution] demands.” Id. at 65. In articulating the right of confrontation as categorical, Crawford relied on the fact that the Confrontation Clause
constrains judges – not just prosecutors. See id. at 6768. So too does the public-trial right constrain judges.
Waller, 467 U.S. at 46, 47 n.4. Logically, then, one might
expect (or at least hope) that the public-trial right also
be categorical, i.e., that it not be subject to judicial
value-weighing. In light of Waller and Presley – and informed by Crawford’s rationale – the Court seriously

App. 60
questions whether the triviality exception conforms
with the Sixth Amendment.
Second, the Minnesota Supreme Court’s rule that
“administrative” proceedings during a criminal trial
are not subject to the public-trial right also is inconsistent with Waller and Presley. A trial court must apply the four-factor Waller test “before excluding the
public from any stage of a criminal trial.” Presley, 558
U.S. at 213. A comparison of the Minnesota Supreme
Court’s rule (that “administrative” proceedings are
not subject to the public-trial right) to the proceedings
at issue in Waller and Presley casts serious doubt on
the constitutionality of the Minnesota Supreme Court’s
rule. Waller involved a suppression hearing; Presley
involved voir dire. To use the Minnesota Supreme
Court’s own language of what makes a proceeding “administrative,” a suppression hearing is “evidentiary”
and can potentially involve “exchanges between counsel and the court on . . . technical legal issues”; and voir
dire implicates no “fact finding function” and is in no
way “determinative of the accused’s guilt or innocence.”
See Smith, 876 N.W.2d at 329-30. That the Minnesota
Supreme Court’s rule could arguably be stretched to
support finding a suppression hearing and voir dire
outside the scope of the public-trial right – which
would obviously be directly contrary to the Supreme
Court’s clearly established precedent – suggests that
the Minnesota Supreme Court’s rule is not in line with
Supreme Court law.
In determining whether the Minnesota Supreme
Court applied the incorrect rule of law, the Supreme

App. 61
Court’s decision in Williams v. Taylor, 529 U.S. 362, is
informative. There, the Supreme Court held that the
Virginia Supreme Court acted contrary to clearly established federal law when the Virginia Supreme
Court failed to apply the test from Strickland v. Washington, 466 U.S. 668 (1984), in determining whether a
criminal defendant was prejudiced by allegedly ineffective assistance of counsel. Williams, 529 U.S. at 391.
The Strickland test asks whether “there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Williams, 529 U.S. at 391 (quoting Strickland, 466 U.S. at 694). But the Virginia Supreme Court
evaluated whether the defendant’s trial was “fundamentally unfair,” a higher standard for the defendant
to meet. Id. at 392-97. The Supreme Court held that
Virginia’s failure to apply the proper test from Strickland was, under AEDPA, contrary to clearly established federal law. Id. at 399; see also Lafler, 566 U.S.
at 173 (finding a state-court decision contrary to
clearly established federal law for failing to apply
Strickland to a defendant’s ineffective-assistance-ofcounsel claim).
Also instructive is the Third Circuit’s recent decision in Tucker v. Superintendent Graterford SCI, 677
F. App’x 768 (3d Cir. 2017). There, the court concluded
that the Pennsylvania Supreme Court acted contrary
to clearly established federal law when it failed to apply the Waller test to a courtroom closure that occurred

App. 62
during the defendant’s trial. Id. at 774-76.14 Instead of
Waller, the Pennsylvania Supreme Court applied a
“less rigorous standard” based on its own precedent –
that “trial courts . . . may always place reasonable restrictions on access to the courtroom, so long as the
basic guarantees of fairness are preserved.” Id. at 775
(quoting Commonwealth v. Berrigan, 501 A.2d 226, 234
(Pa. 1985)). Like the Supreme Court in Williams, the
Third Circuit in Tucker held that Pennsylvania’s failure to apply the Waller test was, under AEDPA, contrary to clearly established federal law. Id. at 776 (“The
standard articulated in Berrigan that allows ‘reasonable restrictions’ on public access to the courtroom is inconsistent with the narrow tailoring required by
Waller.”).
Nevertheless, the Court cannot conclude that the
rule the Minnesota Supreme Court applied in Smith’s
case was contrary to clearly established federal law;
although the Minnesota Supreme Court comes extremely close to applying a rule contrary to clearly established federal law. Similar to the Virginia Supreme
Court in Williams, the Minnesota Supreme Court here
failed to apply the Supreme Court’s Waller test to the
closure during Smith’s trial. See Smith, 876 N.W.2d at
330. Instead, the Minnesota Supreme Court, applying
mostly its own precedent, evaluated the nature of the
14

Tucker’s case involved a total/complete closure. “[T]he trial
judge chose to close the courtroom during the testimony of all witnesses, including the six law enforcement officers who testified,
and to all members of the public, save for a detective and a group
of students, who were in attendance at the request of a friend of
the trial judge.” Tucker, 677 F. App’x at 775 n.9.

App. 63
proceeding, i.e., whether it was “administrative,” such
that Smith’s right to a public trial was not implicated.
Id. at 328-30.
But the obstacle for Smith – and ultimately, the
Court – is twofold: the scarcity of Supreme Court law
on the public-trial right, and the abundance of Supreme Court law on AEDPA. Waller and Presley are the
only two Supreme Court decisions that clearly address
the scope of the Sixth Amendment right to a public
trial. And while each clearly held that the public-trial
right applies to a particular proceeding outside the
presentation of evidence and argument to the jury, the
holdings of Waller and Presley do not categorically
foreclose the Minnesota Supreme Court’s rule. The Supreme Court has repeatedly directed lower courts to
look only to the Supreme Court’s holdings, not dicta, in
determining what law is clearly established. Williams,
529 U.S. at 412. It has instructed lower courts to
avoid framing its cases at a “high level of generality.”
Jackson, 569 U.S. at 512. And a state-court decision is
not contrary to clearly established federal law because
the state court fails to cite Supreme Court cases or relies on state-court precedent. Mitchell, 540 U.S. at 16;
Davis, 828 F.3d at 666. For this Court to conclude that
the Minnesota Supreme Court’s rule is contrary to
clearly established federal law would require the Court
to read too much into the phrases “any closure” from
Waller, “every stage” from Presley, and “closed proceedings” from Press-Enterprise. Under AEDPA’s highly
deferential standard, the Court must conclude that the

App. 64
Minnesota Supreme Court’s decision is not contrary to
clearly established federal law.
C. “Unreasonable Application of ” Clearly
Established Federal Law
Smith also argues that the Minnesota Supreme
Court’s decision is an unreasonable application of
clearly established federal law because the Minnesota
Supreme Court recognized Waller as binding but failed
to apply it to the closure during Smith’s trial. For the
same reasons that the Minnesota Supreme Court’s
decision comes close to being contrary to clearly established federal law, its decision comes equally close
to unreasonably applying clearly established federal
law by failing to apply Waller in the first place. See
Williams, 529 U.S. at 397 (holding that a state-court
decision is an “unreasonable application” of clearly established federal law for the same reasons that it is
“contrary to” clearly established federal law).
But assuming that the triviality exception and the
Minnesota Supreme Court’s rule regarding “administrative” proceedings are not incorrect legal principles,
this Court cannot conclude that the Minnesota Supreme Court’s application of its rule to Smith’s case is
objectively unreasonable. The closed proceeding during Smith’s trial concerned “evidentiary boundaries,
similar to what would ordinarily and regularly be discussed in chambers or at a sidebar conference,” “it was
transcribed, and it consumed only two-tenths of one
percent of the trial transcript.” Smith, 876 N.W.2d at

App. 65
330. It was not objectively unreasonable for the Minnesota Supreme Court to conclude (under its rule) that
the proceeding was “administrative,” and thus outside
the Sixth Amendment’s protection.15
D. Application of the Waller Test
The Minnesota Supreme Court did not apply
Waller’s four-factor test to the closure during Smith’s
trial. See id. at 329. However, then-Justice Stras, concurring in the judgment, concluded that “there is little
doubt that the closure would fail” Waller. Id. at 341
(Stras, J., concurring). The Magistrate Judge likewise
found that the trial court’s closure would be unconstitutional under Waller, (R&R at 17-19), and no objections were made by either party to that portion of the
R&R.

15

The Magistrate Judge noted that the parties dispute the
“characterization of the closure as occurring during a pretrial proceeding,” but that “the timing of the closure is undisputed.” (R&R
at 16.) The Magistrate Judge then concluded that “the Minnesota
Supreme Court’s conclusion that the closure occurred during a
pretrial proceeding” was a factual finding by a state court that a
federal court must “presume to be correct.” (Id. at 16-17 (citing 28
U.S.C. § 2254(e)(1)).) The Court rejects this portion of the R&R.
The Minnesota Supreme Court did not find, as a factual matter,
that the closure occurred during a “pretrial” proceeding. See
Smith, 876 N.W.2d at 327 (calling the closed proceeding a “sequel”
to the trial court’s “pretrial” ruling). The Minnesota Supreme
Court simply held, as a matter of law, that Smith’s public-trial
right did not apply to the proceeding. See Miller-El v. Cockrell,
537 U.S. 322, 341 (2003) (“[S]ubsection [2254(e)(1)] pertains only
to state-court determinations of factual issues, rather than decisions.”)

App. 66
The Court has little difficulty concluding that the
trial court’s sua sponte closure during Smith’s trial
fails the Waller test.16 First, the trial court did not consider “reasonable alternatives” to a complete and total
closure of the courtroom. See Waller, 467 U.S. at 48.
Second, “the trial court’s sole articulated reason was
speculative,” (R&R at 17), i.e., “because otherwise [information] could be printed, and indeed, while the jurors hopefully will follow the admonition not to read
or hear anything in the press . . . of course it runs the
risk of getting to the jury if for some reason they
don’t adhere to their oath.” (Resp’t Ex. C at 6:4-14 (emphases added).) Fear that jurors might disregard trial
courts’ admonitions, if blindly accepted, could justify
myriad courtroom closures – indeed, practically any.
Smith, 876 N.W.2d at 340 (Stras, J., concurring). Third,
the trial court’s reasoning was backwards: fear that the
media might report the substance of a proceeding
“should weigh in favor of keeping the courtroom doors
open, not against it.” Id. Fourth, the trial court did not
make the necessary findings on the record before closing the courtroom. See Presley, 558 U.S. at 214-15. This
point bears repeating: Waller findings must be made
before closing the courtroom so that “a reviewing
court can determine whether the closure . . . was
proper[ ].” Id. at 215 (quoting Press-Enter., 464 U.S. at
510). Here, that purpose is front-and-center: every
court to review the Minnesota trial court’s closure
16

Indeed, the Minnesota Supreme Court majority stated:
“[W]e do not understand the [trial] court’s rationale for closing the
proceeding to the public.” Smith, 876 N.W.2d at 330 n.8.

App. 67
cannot make sense of it. Smith, 876 N.W.2d at 330 n.8;
(R&R at 17-19). The trial court might have had a legitimate concern that was more apparent to it at the time
(presiding over the entire trial) than to a reviewing
court later (having only the written record). And fifth,
the information that “the [trial] court sought to prevent from spreading to the jurors [was] already . . .
public.” (R&R at 18.) On this record, the Court is at a
loss to understand why the trial court thought that the
closure would serve any purpose, much less that the
closure was “no broader than necessary” to “advance
an overriding interest.” Waller, 467 U.S. at 48.
The closure during Smith’s trial is part of a
broader and disturbing trend – that Minnesota courts
are restricting public access to criminal trials more frequently and with greater severity. Minnesota trial
courts may exclude children under the age of 17 from
an entire criminal trial, Lindsey, 632 N.W.2d at 657,
660-61 (applying Minn. Stat. § 631.04); they may lock
the courtroom doors during jury instructions and closing arguments, State v. Silvernail, 831 N.W.2d 594, 601
(Minn. 2013); State v. Brown, 815 N.W.2d 609, 615-18
(2012); they may impose a photo-ID requirement for
all spectators, Taylor, 869 N.W.2d 1 at 11-12; they
may even lock “the courtroom door and requir[e] members of the public to contact court administration to
gain entry to the courtroom during voir dire and the
evidentiary phase of trial,” State v. Garrison, No. A141998, 2015 WL 7201069, at *3-4 (Minn. Ct. App. Nov.
16, 2015); and all of these restrictions may be imposed without making Waller findings on the record

App. 68
beforehand because, in each instance, Minnesota
courts simply concluded that the closures are not
“true” constitutional closures and therefore that Waller
does not apply.
This Court expresses significant concern with
this development. See Tucker, 677 F. App’x at 776 (criticizing Pennsylvania courts for “not applying Waller
when analyzing defendants’ Sixth Amendment publictrial claims”). While the Court expresses no view about
the constitutionality or appropriateness of any one of
the aforementioned practices, the overall trend in
Minnesota is undoubtedly toward more restrictions
and closures – irrespective of whether they are classified as true, total, partial, or otherwise. Indeed, members of the Minnesota Supreme Court themselves have
criticized this “creeping courtroom closure.” Silvernail,
831 N.W.2d at 607-09 (Anderson, J., dissenting);
Brown, 815 N.W.2d at 622-27 (Meyer J., dissenting).17
17

Academic work too has criticized both Minnesota precedent on courtroom closures and the triviality exception generally.
See Kristin Saetveit, Note, Close Calls: Defining Courtroom Closures Under the Sixth Amendment, 68 STAN. L. REV. 897, 925
(2016) (“Lower courts’ replacement of Waller’s test with ad hoc
determinations regarding a closure’s ‘triviality’ constitutes evasion of controlling Supreme Court precedent.”); Zach Cronen,
Note, Criminal Law: Behind Closed Doors: Expanding the Triviality Doctrine to Intentional Closures – State v. Brown, 40 WM.
MITCHELL L. REV. 252, 269, 281 (2013) (“[Brown] further muddies
the analysis between trivial closures and harmless errors, running afoul of U.S. Supreme Court precedent.”); Daniel Levitas,
Comment, Scaling Waller: How Courts Have Eroded the Sixth
Amendment Trial Right, 59 EMORY L.J. 493, 533 (2009) (“Courts
often employ post hoc rationales justifying closure despite the
plain language of Waller that forbids it.”).

App. 69
Minnesota courts would be wise to honor the professed
wishes of its highest court: “We do not want anyone to
be discouraged from attending or viewing proceedings
in Minnesota courts. ‘One of our solemn obligations is
to ensure Minnesota’s courts remain open and accessible to all. Upholding this commitment is a central mission of our Judicial Branch, and it guides our every
step. . . .’ ” Taylor, 869 N.W.2d at 12 & n.6 (quoting
Chief Justice Lorie S. Gildea, Speech to Minnesota
State Bar Association (June 26, 2014)).
V.

REMEDY

“[A] violation of the right to a public trial is a
structural error.” Weaver v. Massachusetts, 137 S. Ct.
1899, 1908 (2017). This is so “because of the ‘difficulty
of assessing the effect of the error.’ ” Id. at 19 10 (quoting United States v. Gonzalez-Lopez, 548 U.S. 140, 149
n.4). “Despite its name, the term ‘structural error’ carries with it no talismanic significance as a doctrinal
matter. It means only that the government is not entitled to deprive the defendant of a new trial by showing
that the error was ‘harmless beyond a reasonable
doubt.’ ” Id. (quoting Chapman v. California, 386 U.S.
18, 24 (1967)). “[I]n the case of a structural error . . . ,
the defendant generally is entitled to ‘automatic reversal’ regardless of the error’s actual ‘effect on the outcome.’ ” Id. (quoting Neder v. United States, 527 U.S. 1,
7 (1999)). But for a violation of a criminal defendant’s
public-trial right, “the remedy should be appropriate to
the violation” so as to serve “the public interest” and

App. 70
avoid “a windfall for the defendant.” Waller, 467 U.S. at
50.
“It is a truism that constitutional protections have
costs.” Coy v. Iowa, 487 U.S. 1012, 1020 (1988). Smith
insists that he is entitled to a new trial. The Government maintains that the public-trial violation should
be remedied by a public bench conference and a new
trial should be ordered only if that public bench conference would result in a material change to the trial
court’s ruling. The Court seriously doubts that any
remedy it could craft would be appropriate to the violation and not result in a windfall for Smith. But the
Court need not undertake such an endeavor because
Smith is not entitled to federal habeas relief.
VI. CERTIFICATE OF APPEALABILITY
The Court may grant a Certificate of Appealability
only if the petitioner “has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). The petitioner must show that the issues
are debatable among reasonable jurists, that a court
could resolve the issues differently, or that the issues
deserve further proceedings. Flieger v. Delo, 16 F.3d
878, 882-83 (8th Cir. 1994).
As the Court’s Opinion makes clear, Smith has
made a substantial showing that his constitutional
right to a public trial was denied. He also has shown
that reasonable jurists would find the issues raised in
his habeas petition debatable, that some other court
could resolve the issues differently, and that the issues

App. 71
deserve further proceedings. The Court will therefore
grant a Certificate of Appealability.
CONCLUSION
AEDPA’s deference necessarily means that some
constitutional violations will go unremedied by federal
courts, but not unnoticed. This is likely one such case.
Despite the relatively short closed interruption in the
trial, the Minnesota trial court appears to have violated Smith’s Sixth Amendment right to a public trial.
And the Minnesota Supreme Court’s decision – while
neither contrary to nor involving an unreasonable application of clearly established federal law – comes
perilously close to satisfying AEDPA’s strict standards.
The Minnesota Supreme Court no doubt acted in
good faith and with the best of intentions. It relied on
its own precedent in concluding that the closure here
did not implicate Smith’s Sixth Amendment right to a
public trial. But the Minnesota Supreme Court’s decision and the precedent on which it relies demonstrate
precisely the risk of a slow but steady erosion of constitutional rights by the well-intentioned that must be
vigilantly guarded against. The Founders enshrined in
the Constitution the right to a public trial. And in so
doing, they made a judgment about how criminal trials
can best be fair: by being public. Judges may not flout
that constitutional command absent the necessary
findings beforehand in conformance with the instructions of our nation’s highest court. Quite simply, process matters.

App. 72
It is the judgment of this Court that Minnesota
trial courts should curb their practice of closing their
courtrooms during criminal trials – or at least perform
the Supreme-Court-mandated Waller analysis on the
record first. If they do not, Minnesota might soon find
itself in Georgia’s shoes: on the losing end of a summary reversal by the Supreme Court of the United
States.
ORDER
Based on the foregoing, and all the files, records,
and proceedings herein, Petitioner’s Objection [Docket
No. 22] is OVERRULED and the Report and Recommendation of the Magistrate Judge [Docket No. 21] is
ADOPTED to the extent consistent with this Opinion.
IT IS HEREBY ORDERED that:
1.

Smith’s Petition for a Writ of Habeas Corpus
[Docket No. 1] is DENIED.

2.

This action is DISMISSED with prejudice.

3.

For purposes of appeal, the Court GRANTS a
Certificate of Appealability under 28 U.S.C.
§ 2253(c)(2).

LET JUDGMENT BE ENTERED ACCORDINGLY.

App. 73
DATED: August 3, 2018
at Minneapolis, Minnesota.
s/John R. Tunheim
JOHN R. TUNHEIM
Chief Judge
United States District Court

App. 74
STATE OF MINNESOTA
IN SUPREME COURT
A14-0941
A15-0300
Morrison County
State of Minnesota,

Lillehaug, J.
Concurring, Stras, J.
Took no part, Hudson, J.

Respondent (A14-0941),
Appellant (A15-0300),
vs.

Filed: March 9, 2016
Byron David Smith,
Office of Appellate Court
Appellant (A14-0941),
Respondent (A15-0300).
-----------------------------------------------------------------------

Lori Swanson, Attorney General, Saint Paul, MN; and
Brian Middendorf, Morrison County Attorney, Peter J.
Orput and Brent D. Wartner, Special Assistant Morrison County Attorneys, Stillwater, MN, for respondent/
appellant State of Minnesota.
Steven J. Meshbesher, Adam T. Johnson, Meshbesher
& Associates, P.A., Minneapolis, MN, for appellant/
respondent Byron David Smith.
John P. Borger, Leita Walker, Faegre Baker Daniels
LLP, Minneapolis, MN; and Randy M. Lebedoff, Minneapolis, MN, for amicus curiae Star Tribune Media
Company, LLC.
-----------------------------------------------------------------------

App. 75
SYLLABUS
1. The district court did not err in denying the
defendant’s motion to dismiss the indictment based on
five separate, individually alleged errors.
2. The cumulative effect of the five alleged errors
in the indictment process did not deprive the defendant of a fair grand-jury proceeding.
3. The nonpublic proceeding to discuss the district court’s ruling on a pretrial evidentiary issue did
not violate the defendant’s Sixth Amendment right to
a public trial.
4. The district court did not violate the defendant’s constitutional right to present a complete defense
by excluding four pieces of evidence.
5. Because the prosecutor did not commit misconduct in closing argument, the district court did not
err in failing to give a curative jury instruction.
6. The district court erred when it determined
that the defendant’s restitution affidavit was timely
under Minn. Stat. § 611A.045, subd. 3(a) (2014).
Affirmed in part and reversed in part.

App. 76
OPINION
LILLEHAUG, Justice.
Byron David Smith was convicted of two counts of
first-degree premeditated murder related to the shooting deaths of two people. On direct appeal, Smith argues that the district court committed four types of
error. The State, in turn, argues that the district court
committed error in determining the appropriate restitution for the victims’ families. We affirm the convictions and reverse the district court on the issue of
restitution.

I.
This murder case arises out of the deaths of Nicholas Brady and Haile Kifer, who Smith killed in his
home on Thanksgiving Day 2012. Smith, who lived in
Little Falls, was the victim of a series of burglaries at
his home. During a burglary on October 27, 2012, valuable items were taken, including a shotgun and a rifle. Smith notified the police, who investigated the
crime. The intruder left a shoe print on the panel of the
basement door when kicking it in. The police were unable to determine who was responsible for the breakin.
Smith was having trouble sleeping and was unhappy because of the break-ins. Smith suspected that
his female neighbor, A.W., and her parents might be responsible for the break-ins. Smith’s neighbor, W.A., told
Smith that he believed A.W. and her parents were

App. 77
watching Smith’s house to see when he came and went.
Worried that the burglar would return, Smith started
to carry his gun in the house.
Around 10:30 a.m. on Thanksgiving morning, November 22, 2012, Smith and W.A. were talking outside
of W.A.’s residence when they saw A.W. drive by. Less
than an hour later, Smith moved his vehicle from his
garage, which faced the street, and parked it several
blocks away, outside of the home of two state troopers.
Smith later told investigators that he had moved his
car because he wanted to clean his garage and protect
his car from vandalism. Smith then walked back to his
residence, returning at 11:45 a.m. He walked through
his backyard, which faced the river, instead of approaching the main entry of his house from the street.
Around noon, Smith went down to his basement
and turned on a digital audio recorder. He sat down in
an upholstered reading chair facing the side of the
basement stairwell. Smith had a novel, a water bottle,
and some snack bars. On his belt clip was a nine-shot
revolver. Steps away from the reading chair was
Smith’s loaded mini-14 rifle. Smith’s outdoor video surveillance system was running. In the adjacent basement workroom was a screen showing pictures from
four security cameras placed around the exterior of
Smith’s home.
The events that followed were captured on Smith’s
audio recorder. About 11 minutes after turning on the

App. 78
recorder, Smith said, “In your left eye.”1 A little over 17
minutes into the recording, Smith said, “[B.], uh stop
by tomorrow morning. No rush but as soon as convenient. Can you do that? Yea. Uh, park to the north, 100
feet nor . . . 100 yards north of the corner and walk
from the west.”2 Almost 23 minutes into the audio recording, Smith said, “I realize I don’t have an appointment but I would like to see one of the lawyers here.”
At 12:33 p.m., Nicholas Brady approached Smith’s
house, looked into the windows, and tried the doorknobs. Smith heard the doorknobs rattling, saw a
shadow in front of the picture window in the basement,
and listened as Brady walked across the deck. Then
glass broke upstairs, which was the sound of Brady
breaking and entering through Smith’s bedroom window. Brady approached the basement stairs. Below,
Smith sat waiting.
As Brady descended the stairs, Smith saw Brady’s
feet, his knees, and then his hip. Smith shot Brady in
the chest with the rifle. Smith later told investigators
that he had not seen Brady’s hands when he fired.
Smith shot Brady a second time. Brady tumbled
down to the basement floor, face up. Three seconds
later, at close range, Smith shot the groaning Brady.
1

One of the shots Smith later fired struck Kifer by her left

eye.
2

B. is Smith’s brother. Smith did not call his brother until
much later in the evening. The prosecution’s theory was that
Smith was rehearsing what he would say after he encountered
burglars.

App. 79
The bullet went through Brady’s hand and then
through the side of his head. Smith said to Brady,
“You’re dead.”
Smith retrieved Brady’s shoes, which had fallen
off when Brady fell down the stairs, and put them under his reading chair. Grabbing a tarp from near the
basement fireplace, Smith put Brady on the tarp and
dragged him to the adjoining workroom. Smith reloaded his rifle.
About 10 minutes after Brady entered and about
8 minutes after the shooting, Haile Kifer entered
Smith’s house. Kifer quietly called out, “Nick.” Hearing
no response, she started down the basement stairs. She
again said, “Nick.” Just as he had with Brady, Smith
fired when he saw Kifer’s hips, but before he saw her
hands. Smith later told the police that his first shot
was at “what [he] would consider point blank range.”
Kifer tumbled down the steps. Smith tried to shoot
her again, but his rifle jammed. Smith commented,
“Oh, sorry about that.” Kifer exclaimed, “Oh my God!”
Smith pulled out his revolver and shot her. Amidst
Kifer’s screams, Smith shot her a third time and a
fourth time.3 Smith said, “You’re dying!” Kifer
screamed. Smith shot her a fifth time. Calling her
“bitch,” Smith dragged Kifer into the workroom and
placed her on the tarp on top of Brady’s body. But Kifer

3

The prosecution and defense disagree on whether Kifer also
said “I’m sorry” between the third and fourth shots. We discuss
this disagreement below.

App. 80
was not yet dead, so Smith shot her a sixth and final
time.
For the next 5 hours after the shootings, Smith
stayed in his house. The audio recorder captured Smith
talking to himself. His statements included:
“I left my house at 11:30. They were both dead
by 1.”
“Of course. I’m safe now.”
“Cute. I’m sure she thought she was a real
pro.”
“You’re dead.”
“I am not a bleeding heart liberal. I felt like I
was cleaning up a mess. Not like spilled food.
Not like vomit. Not even like . . . not even like
diarrhea. The worst mess possible. And I was
stuck with it.”
“In some tiny little respect . . . in some tiny little respect . . . I was doing my civic duty. If the
law enforcement system couldn’t handle it, I
had to do it. I had to do it.”
“The law system couldn’t handle her and if it
fell into my lap and she dropped her problem
in my lap . . . ”
“And she threw her problem in my face. And I
had to clean it up.”
“They weren’t human. I don’t see them as human. I see them as vermin. Social mistakes.
Social problems. I don’t see them as . . . human. This bitch was going to go through her

App. 81
life, destroying things for other people. Thieving, robbing, drug use.”
“It’s all fun. Cool. Exciting. Highly profitable.
Until somebody kills you.”
“It’s a sucker shot. People going down strange
stairs naturally watch the steps.” “Like I give
a damn who she is.”
“It’s not a mess like spilled food. It’s not a
mess like vomit. It’s not even a mess like diarrhea. It’s far worse. Then they take slice after
slice out of me.”
“Five thousand. Five thousand dollar slice.
Ten thousand dollar slice. And if I gather
enough evidence, they might be prosecuted. If
they’re prosecuted it might go to court. If it
goes to court, they might be found guilty.”
“If they’re found guilty they might spend . . . 6
months, 2 years in jail and then they’re out,
and they need money worse than ever and
they’re filled with revenge. I cannot live a life
like that.”
“I cannot have that chewing on me for the rest
of my life. I cannot . . . I refuse to live with that
level of fear in my life. I refuse to live with
that level of fear in my life.”
“She’s tough. She’s eye candy. It’s [inaudible]
games. It’s exciting. It’s highly profitable. Until somebody kills you. Until you go too far and
somebody kills you. Until you take advantage
of somebody who’s not a sucker.”

App. 82
“Mother and father are semi-psychotic, are
both semi-psychotic. I put even odds that one
or the other will come over here with a gun.”
Smith did not call law enforcement on November
22. As he later explained, “I was sitting [there] afraid
that most likely the brass plated bitch would nag [him]
into it and he would come over with a gun to see what
had gone wrong. I was sitting there afraid.”4 Smith also
said that he did not want to ruin the Thanksgiving holiday for law enforcement.
The next day, November 23, Smith spoke to W.A.
on the telephone and asked W.A. to find him a lawyer.
Later, Smith asked W.A. to contact the sheriff ’s office.
Smith advised W.A. that he had solved the break-ins in
the neighborhood.
W.A. called the sheriff ’s department. Over the
course of several conversations with dispatch and department personnel, W.A. asked that Sergeant
Luberts, who had investigated the burglaries at
Smith’s residence, respond to Smith’s residence as soon
as he was available. A short time later, Sergeant
Luberts and another deputy arrived.
As the peace officers approached the house, Smith
“came out of the door with his hands up and said he
needed to tell [them] something.” After leading the officers into his home, Smith explained that he was a victim of previous burglaries, the most recent occurring
the day before, on Thanksgiving. Smith led the officers
4

Smith seemed to be referencing A.W.’s parents.

App. 83
to his bedroom to see the broken glass. Then Smith told
the officers he needed to show them something in the
basement. There the officers saw the bodies of Kifer
and Brady on the tarp.
Smith told the officers how he shot a man coming
down the steps. Smith explained that he wanted the
person dead and shot him until he was dead before
dragging him onto the tarp. Smith described how he
shot a woman coming down the steps. Smith said that
he shot the woman again after she fell to the bottom of
the steps, this time aiming for her heart. Smith told
the officers that after he dragged the woman into the
workroom, he noticed she was still gasping for breath,
so he shot her. Smith explained that he thought the
woman was his neighbor, A.W.
The officers arrested Smith and took him to the
sheriff ’s office for questioning. During Mirandized interrogations, Smith reviewed the burglaries leading up
to and including the Thanksgiving shootings. For the
past month, Smith had “felt very threatened.” When he
heard people coming down the stairs of the basement,
Smith believed they were the burglars who stole his
guns. He added, “I figured they’re willing to use guns if
they steal guns and I decide[d] that I’ve got a choice of
either shooting or being shot at.”
Smith described how he killed Brady as he came
down the stairs. “I saw his feet, and then I saw his legs,
and when I saw his hips I shot.” When the investigator
asked whether Smith saw Brady’s hands when Brady
came down the steps, Smith added, “I didn’t see his

App. 84
hands at that point.” Smith explained how Brady tumbled to the floor. “And he’s looking face up at me. . . .
[And] I shoot him in the face.” “I want[ed] him dead.”
After he shot Brady, Smith sat back down in the chair
and his adrenaline was going—“I just . . . wanted to
calm down more than anything else.”
Smith also described how he shot Kifer in the hip
as she came down the stairs. Again, Smith shot before
he saw her hands, and when she fell on the ground,
“[h]er hands were open but she would have dropped
anything she was carrying.” But he was “not going to
ask if there’s a gun. . . . You know people who steal
guns I don’t want to give them the chance to shoot
me. . . . She could have or might not have had a gun in
her hands.”
Smith also elaborated on why he killed the woman
he thought was A.W.:
And thinking back on it what happened was—
everybody has red buttons. Everybody has
sore spots. And I’ve known since grade school
that being ganged up on is a sore spot with
me. I just wasn’t thinking. I didn’t think. I
wasn’t thinking. I was just; they’re ganging up
on me so I killed her too.
Smith thought that Kifer laughed at him when his rifle
jammed. “It wasn’t a very long laugh [be]cause she was
already hurting.” He explained, “[T]here was another
red button I guess most people would have, so if you’re
trying to shoot somebody and they laugh at you, you go
again. . . . I fired more shots than I needed to.” When

App. 85
asked, “Why did you fire more shots than you needed
to do you figure?,” Smith replied, “[A. 22] is a peashooter and I was very, very threatened, unhappy.”
Smith was asked, “You were mad, correct?” Smith responded, “Yes.”
Smith described how he dragged Kifer to the tarp,
and explained: “Ah, after she was on the tarp she was
still gasping. . . . And as much as I hate someone I don’t
believe they deserve pain so I gave her a [not discernable] shot under the chin up into the cranium.” “I
thought she was dead and it turned out she wasn’t. . . .
So, ah, I did a good clean finishing shot.” “And, ah, she
gave out the death twitch. First time I’ve ever seen it
in a human, but it works the same in beaver, and deer,
and whatever.”
Smith explained how he checked Kifer’s shoes to
see if the tread pattern matched the shoe print left on
the basement door from the October 27 burglary. When
he determined Kifer’s shoes did not match, he checked
Brady’s shoes. Smith thought Brady’s tread pattern
might match and that law enforcement would need to
investigate further.
Toward the end of the interrogation, Smith recounted the previous burglaries at his home. Smith explained that even after he started locking his doors,
“the dogs had eaten well enough at the garbage pail
they kept returning.” Smith also said that he “now realize[d]” that parking far away was likely the impetus
for the burglars to come—“[b]ecause they thought [he]

App. 86
was gone.” Smith had never parked his car in that location before.
Smith was charged by complaint with two counts
of second-degree murder. A grand jury then indicted
Smith on two counts of first-degree premeditated murder. Smith moved to dismiss the indictment. The district court denied the motion. The court of appeals
denied Smith’s petition for discretionary review. State
v. Smith, No. A13-2276, Order (Minn. App. filed Jan. 14,
2014), rev. denied (Minn. Mar. 18, 2014).
At trial, Smith’s main defenses were that he used
reasonable force in defense of himself and his dwelling.
The judge instructed the jury that the State had the
burden of proving beyond a reasonable doubt that
Smith did not use reasonable force. Following trial, a
jury found Smith guilty of two counts of second-degree
murder and two counts of first-degree premeditated
murder. The district court convicted Smith of two
counts of first-degree premeditated murder, Minn.
Stat. § 609.185(a)(1) (2014), and sentenced him to two
concurrent life sentences without the possibility of release. Smith appealed.
At Smith’s request, we stayed his appeal pending
a restitution hearing. The Brady and Kifer families’
restitution requests included the estimated cost of a
headstone for each victim. The district court initially
awarded Kifer’s family the full amount requested, but
reserved for hearing the determination of the appropriate amount of restitution for Brady’s family. The issue was whether restitution should be reduced due to

App. 87
Brady’s alleged involvement in previous burglaries of
Smith’s home.
The district court reminded Smith that he needed
to submit a detailed, sworn affidavit setting forth all
challenges to the restitution requests and otherwise
meeting the requirements of Minn. Stat. § 611A.045,
subd. 3(a) (2014). But Smith’s affidavit did not specifically challenge the restitution awards for the headstones, and he did not contest the amount of the
awards until after the hearing. The district court ultimately denied the Kifer and Brady families’ requests
for restitution to cover the estimated cost of the headstones. Thereafter, the State appealed from the district
court’s restitution order, we reinstated Smith’s direct
appeal, and we consolidated the two appeals.
Smith argues that the district court: (1) erred
when it denied his motion to dismiss the indictment;
(2) erred when it briefly closed the courtroom to spectators and the press; and (3) violated his constitutional
right to present a complete defense by excluding certain evidence. Smith also argues that (4) the prosecutor committed misconduct in his closing argument and
the district court erred when it failed to issue a cautionary instruction to the jury. The State contends that
the district court abused its discretion by: (1) allowing
Smith to challenge the restitution request for the estimated expenses of the victims’ headstones; and (2)
denying restitution for the victims’ headstones when
estimates were available. We consider each alleged error in turn.

App. 88
II.
We first must decide whether the district court
committed reversible error when it denied Smith’s motion to dismiss the indictment for individual and cumulative errors. Smith raises five separate errors: (1)
the indictment was issued without the deliberation
and vote of the grand jury; (2) Smith suffered substantial prejudice when the State attempted to impeach a
witness; (3) the prosecutor improperly disclosed to the
grand jury that Smith was charged with second-degree
murder; (4) the instruction on premeditation erroneously blurred the distinction between first- and seconddegree murder; and (5) the State elicited irrelevant
“spark of life” evidence from the victims’ mothers. The
State disputes each argument, but also argues that, cumulatively, the alleged errors do not undermine the
probable cause for the indictment or the grand jury’s
independence.
“A grand jury determines whether ‘there is probable cause to believe the accused has committed a particular crime.’ ” Dobbins v. State, 788 N.W.2d 719, 731
(Minn. 2010) (quoting State v. Greenleaf, 591 N.W.2d
488, 498 (Minn. 1999)). “A presumption of regularity
attaches to the indictment and it is a rare case where
an indictment will be invalidated.” Id. “[A] criminal defendant bears a heavy burden when seeking to overturn an indictment. The burden is heavier for a
defendant who raises the issue on direct appeal after
he has received a fair trial and been found guilty beyond a reasonable doubt.” Dobbins, 788 N.W.2d at 731.

App. 89
A.
Smith first argues that the indictment was issued
without the vote and deliberation of the grand jury because, when they deliberated, the grand-jury members
did not have the formal indictment, which differed
from the proposed indictment the State read to the jurors before their deliberation. “An indictment may only
issue if at least 12 jurors concur. The indictment must
be signed by the foreperson, whether the foreperson
was one of the 12 who concurred or not, and delivered
to a judge in open court.” Minn. R. Crim. P. 18.06.
During the grand-jury proceedings, the State displayed to the grand jury on a screen, and read aloud, a
proposed indictment. The State also placed paper copies of the proposed indictment on the table for the jurors to consider during deliberations. Count I of the
proposed indictment read, in material part:
Byron Smith, on or about November 22, 2012,
in Morrison County, did wrongfully, unlawfully, cause the death of a human being, to-wit:
Nicholas Brady, with premeditation and with
intent to effect the death of Nicholas Brady,
said defendant using a firearm as a deadly
weapon at the time of the offense.
(Emphasis added.) Count 2, relating to Kifer, was otherwise identical.
After deliberations and in the presence of the
grand jury, the foreperson announced that the grand
jury had reached a decision to indict. The State then
prepared the formal indictment. Substantively, the

App. 90
content of the formal indictment was the same as the
proposed indictment, except that the references to
“wrongfully” and to “defendant using a firearm as a
deadly weapon” were removed from the formal indictment.
In the presence of the grand jury, the prosecutor
inquired whether “at least 12 members of the grand
jury [were] in agreement with the decisions to indict
on Counts 1 and 2, First Degree Murder for the deaths
of Haile Kifer and Nicholas Brady.” The foreperson responded, “Yes.” The State read the formal indictment
to the grand jury. The State verified with the foreperson, again in the presence of the grand jury, that the
formal indictment was “consistent with the decision of
the grand jury.” Then, in front of both the judge and the
grand jury, the State verified that it read the language
of the indictment to the grand jury “word for word” and
that the indictment “accurately reflected [the grand
jury’s] decision in this matter.” The foreperson answered “yes” to both questions.
Smith relies primarily on State v. Grose to support
his argument that the grand jury did not separately
deliberate and vote on the formal indictment. 387
N.W.2d 182 (Minn. App. 1986). In Grose, the court of
appeals found that the jurors did not concur in the indictment because, instead of submitting a final indictment to the grand jury for its approval, the prosecutor
“read the proposed indictment to the grand jury, and
told them to stop her if they had ‘any problems’ or
wanted to ‘add anything.’ ” Id. at 189. The prosecutor
had made “a ‘substantial’ modification of crucial

App. 91
allegations of the indictments.” Id. at 185. This violation, coupled with multiple other violations, led the district court to dismiss the indictment, and the court of
appeals to affirm the district court’s decision. Id. at
185, 190.
As the State points out, Grose is readily distinguishable from this case. Here, the State read the formal indictment to the grand jury “word for word” and
then verified with the foreperson, in the grand jury’s
presence, that the “language accurately reflected its
decision in this matter.” Further, unlike Grose, the
change to the proposed indictment was not “substantial” and did not relate to the “crucial allegations” that
Smith, on or about November 22, 2012, caused the
death of two persons, Brady and Kifer; that he did so
with the intent to cause their deaths; and that he did
so with premeditation. The grand jury had already
voted for each one of these allegations. All changes
were immaterial and related to facts not disputed at
trial. Therefore, we conclude that the grand jury concurred in the indictment, voting for each and every material allegation contained within it, and the district
court did not err when it denied Smith’s motion to dismiss the indictment.
B.
Smith next argues that the district court erred
when it held that the State’s attempt to impeach W.A.,
Smith’s friend and neighbor, although improper, did
not warrant dismissal of the indictment. The State’s

App. 92
line of questioning before the grand jury dealt with a
phone conversation between W.A. and Smith on November 23, the day after the shootings. W.A. told investigators that Smith had asked him, “Could you contact
a lawyer for me and get a lawyer down here [so] I could
talk to a lawyer?” In the grand jury, W.A. recounted
that Smith had asked him to find a lawyer. The State
asked W.A. if Smith had told him “what kind of lawyer
he needed?” When W.A. said “No,” the State asked repeatedly if he was sure he did not recall telling law enforcement that Smith had asked him for “a defense
lawyer.” The State also tried unsuccessfully to refresh
W.A.’s recollection in that regard.
Smith argues that the State’s line of questioning
tarnished W.A.’s credibility with the grand jury and
gave the jurors the impression that Smith had asked
for a defense lawyer because he had committed a
crime. The State contends that the line of questioning
did not have a substantial influence on the grand jury’s
decision to indict.
To determine whether the district court erred, we
apply the Montanaro test to allegations of prosecutorial misconduct in front of the grand jury. State v. Montanaro, 463 N.W.2d 281 (Minn. 1990) (order). A district
court should dismiss an indictment if: (1) “it is clear
that the prosecutor knowingly committed misconduct
in the presentation of evidence to the [g]rand [j]ury;”
and (2) “if the misconduct substantially influenced the
[g]rand [j]ury’s decision to indict in the way it did or if
the court is left with grave doubt that the decision to
indict was free of any influence of the misconduct.” Id.

App. 93
Although we find the prosecutor’s persistent line
of questioning troubling, it did not substantially influence the grand jury’s decision to indict, for two reasons.
First, the evidence of probable cause was overwhelming. The State presented the grand jury with considerable direct evidence that shed light on Smith’s state of
mind, including the audio recording Smith made and
his incriminating statements to law enforcement. With
the recording and statements in hand, the grand jury
could have easily found probable cause independent of
the State’s questioning of W.A. The existence of probable cause as to Smith’s guilt is further confirmed by the
trial jury’s guilty verdicts. See State v. Voorhees, 596
N.W.2d 241, 254 (Minn. 1999).
Second, Montanaro is distinguishable. In Montanaro, the statements the defendant made to the police after a murder, which contained direct evidence of
the defendant’s state of mind, were withheld entirely
from the grand jury. 463 N.W.2d at 281. By contrast, in
this case, the grand jury had all of the information
available regarding Smith’s state of mind at the time
of the shootings—the audio recordings, his statements
to the police, W.A.’s testimony, and other evidence. Additionally, W.A. successfully resisted the prosecutor’s
line of questioning. The proceedings were not tainted.
Because the second part of the Montanaro test is
not met, the district court did not err when it declined
to dismiss the indictment for prosecutorial misconduct.

App. 94
C.
Smith next argues that the State improperly disclosed to the grand jury that Smith had already been
charged with second-degree murder. A grand juror
asked the prosecutor, “Can you tell us what [Smith] is
currently charged with?” The prosecutor responded,
“He was charged by Complaint with two counts of Second Degree Intentional Murder. In order to hold someone to account for premeditated murder in the State of
Minnesota, it must be done by grand jury indictment.
We cannot charge that by Complaint and sustain it.”
On Smith’s motion to dismiss the indictment, the district court determined that the prosecutor’s explanation of the charges was “a clear and proper statement
of fact and law.” We agree.
Further, the prosecutor’s accurate answer did not
substantially influence the grand jury’s decision to indict. As previously discussed, the grand jury had overwhelming evidence of probable cause. There is no
reason to believe that the grand jury indicted Smith
because he had already been charged by complaint.
D.
Next, Smith argues that the grand-jury instructions on premeditation failed to distinguish first-degree murder from second-degree murder, and therefore
the district court should have dismissed the indictment.

App. 95
The prosecutor instructed the jury both orally and
in writing. The prosecutor’s oral instruction to the
grand jury stated:
Premeditation means that Byron Smith considered, planned, prepared for, or determined
to commit the act before he committed it. Premeditation, being a process of the mind, is
wholly subjective and hence not always susceptible to proof by direct evidence. It may be
inferred from all of the circumstances surrounding the event. It is not necessary that
premeditation exist for any length of time. A
premeditated decision to kill may be reached
in a short period of time. However, an unconsidered or rash impulse, even though it includes an intent to kill, is not premeditated.
(Emphasis added.) The State should have said, “It is
not necessary that premeditation exist for any specific
length of time.” See State v. Moore, 481 N.W.2d 355,
360-61 (Minn. 1992) (“Premeditation, by definition, requires some amount of time to pass between formation
of the intent and the carrying out of the act.”). But the
written instructions the State provided to the grand
jury did include the correct language—“any specific
length of time.” Both instructions also contained the
“short period of time” and “rash impulse” sentences.
When a prosecutor has given erroneous instructions to the grand jury, we invalidate an indictment
only with a showing of prejudice. State v. Inthavong,
402 N.W.2d 799, 802 (Minn. 1987). For Smith to prevail, the grand jury instructions must have been “so

App. 96
egregiously misleading or deficient that the fundamental integrity of the indictment process itself is compromised.” Id. That was not the case here.
Examining the effect of the erroneous oral instruction on the jury instructions as a whole, see id. (noting
that instructions to the grand jury should be considered as a whole), the prosecutor’s statement was followed by two sentences that spoke to the correct
premeditation standard. The prosecutor stated that
premeditation “may be reached in a short period of
time” and that an “unconsidered or rash impulse . . . is
not premeditated.” Both of these sentences indicate
that premeditation does not have to exist for any specific length of time. Further, the grand jurors had the
correct instruction in writing. Therefore, the district
court did not err when it declined to dismiss the indictment on this ground.
E.
Smith next argues that the spark-of-life evidence
the State obtained from the victims’ mothers during
the grand-jury hearing was entirely irrelevant and
tainted the proceeding. Spark-of-life evidence consists
of biographical testimony about the victim, including
“a photograph of the victim before the injury occurred.”
State v. Fairbanks, 842 N.W.2d 297, 305 (Minn. 2014).
During the grand-jury proceeding, Kifer’s mother
testified about her daughter’s activities and involvement in high school. She identified her daughter in
three photographs, which were submitted as exhibits

App. 97
to the grand jury. The photographs were from Kifer’s
junior year in high school, from a gymnastics event,
and from a cousin’s wedding. Brady’s mother similarly
testified about her son’s life, particularly what he loved
to do. She explained the significance of three photographs of Brady, depicting him in eleventh grade,
standing up for his uncle’s wedding, and with Kifer and
his sister.
Whether spark-of-life evidence is admissible in a
Minnesota grand-jury proceeding is an issue of first
impression. The district court held that the spark-oflife evidence was not admissible in grand-jury proceedings under current law and the admission of the evidence in this case violated the State’s responsibility to
ensure that the charges were not improperly motivated. Ultimately, however, the district court declined
to dismiss the indictment. The State disagrees with the
determination that the evidence was inadmissible, and
urges us to adopt the same rule that exists for sparkof-life evidence in criminal trials. We have allowed
such evidence at trial “so long as it is not an attempt
to invoke undue sympathy or inflame the passions of
the jury.” State v. Morrow, 834 N.W.2d 715, 727 (Minn.
2013) (citing State v. Graham, 371 N.W.2d 204, 207
(Minn. 1985)). In justifying this rule, we have acknowledged that although “the quality or personal details of
the victim’s life are not strictly relevant to the issue of
who murdered the victim, it would seem to tie 326*326
unduly the hands of the prosecutor to prohibit any
mention of the victim’s life.” State v. Graham, 371
N.W.2d 204, 207 (Minn. 1985). As we said in Graham:

App. 98
“The victim was not just bones and sinews covered
with flesh, but was imbued with the spark of life. The
prosecution has some leeway to show that spark and
present the victim as a human being.” Id.
Although spark-of-life evidence is not highly probative and has the potential for prejudice, we decline
to carve out an exception for grand-jury proceedings.
We allow spark-of-life evidence in criminal trials, subject to limitations. If we were to hold otherwise for
grand jury proceedings, we would be treating this evidence in a unique manner. Indeed, the grand jury is
allowed to consider evidence that is inadmissible at
trial. See Minn. R. Crim. P. 18.05, subd. 1 (listing six
types of evidence that are admissible in a grand-jury
proceeding but not at trial). It would be odd to hold that
the grand jury, solely for spark-of-life evidence, cannot
hear evidence that is admissible at trial, particularly
when the grand jury must only determine probable
cause for the charge—a lesser standard than guilt beyond a reasonable doubt.
Thus, we hold that the prosecutor may present evidence to the grand jury showing that the victim existed and was imbued with the spark of life. We
caution, however, that prosecutors must use this potentially inflammatory tool with care. A prosecutor
who unreasonably relies on spark-of-life evidence to tip
the grand jury’s decision risks dismissal of the indictment.
In this case, the spark-of-life evidence presented
to the grand jury did not taint the indictment. We have

App. 99
previously “affirmed the admission of spark of life photographs ‘where the photographs were used to provide
background information about the family and to personalize [the victim] and where the number of photographs used for these purposes was small.’ ” Morrow,
834 N.W.2d at 727 (quoting State v. Scales, 518 N.W.2d
587, 593 (Minn. 1994)). Here, the prosecutors introduced three photos of each victim and did not use them
inappropriately. Similarly, the mothers’ biographical
testimony was not unreasonable. Further, there was no
prejudice, as the other evidence supporting probable
cause was more than sufficient.
F.
Finally, Smith argues that even if each grand-jury
error was individually harmless, the cumulative effect
of the errors deprived him of a fair proceeding. “ ‘Cumulative error exists when the cumulative effect of the
. . . errors and indiscretions, none of which alone might
have been enough to tip the scales, operate to the defendant’s prejudice by producing a biased [grand]
jury.’ ” State v. Penkaty, 708 N.W.2d 185, 200 (Minn.
2006) (quoting State v. Johnson, 441 N.W.2d 460, 466
(Minn. 1989) (internal quotation marks omitted)). On
the other hand, where sufficient admissible evidence
exists to support a finding of probable cause, coupled
with repeated reminders to the grand jury of its independence, the district court’s denial of a motion to dismiss an indictment for cumulative error is proper.
Penkaty, 708 N.W.2d at 200.

App. 100
In this case, even assuming all of the errors argued
by Smith were in fact errors, the prosecutors submitted more than sufficient evidence to the grand jury to
establish probable cause. During the course of the proceedings, the district court also reminded the grand
jury of its independence. The court told the grand jury
it was a “completely independent body, answerable to
no one.” The court explained that the determination of
whether to return an indictment was the grand jury’s
own responsibility, and it added that the jury members
were “not [t]here to act as a rubber stamp for anyone.”
Accordingly, the cumulative effect of the alleged errors
did not deprive Smith of a fair proceeding.
III.
We next consider Smith’s argument that the district court violated his Sixth Amendment right to a
public trial when it closed the courtroom to the public5
to discuss its written order on the admissibility of certain testimony. The courtroom closure occurred at the
beginning of trial on April 21, 2014, shortly after the
case was called but before the jury took its final oath
and began to hear argument and testimony.
The closure was the sequel to a pretrial hearing on
April 17, 2014, which was open to the public. That
5

Star Tribune Media Company, LLC is a nonparty amicus,
and therefore we need not reach its separate First Amendment
argument. See League of Women Voters Minn. v. Ritchie, 819
N.W.2d 636, 645 n.7 (Minn. 2012) (“Generally, we do not decide
issues raised by an amicus that are not raised by the litigants
themselves.”).

App. 101
hearing was on motions in limine, including the issue
of the extent to which Smith could offer evidence of the
previous burglaries of his house. Smith argued that he
should be able to call Brady’s mother and Brady’s
friends, C.K. and J.K., as witnesses to testify to Brady’s
involvement in the previous burglaries. Defense counsel discussed Brady’s alleged co-participants by name
at the hearing, so those names were in the public record.
On Monday, April 21, 2014, the day the parties
would present opening statements and witnesses to
the jury, the deputy court administrator called the
case. The court then closed the courtroom to all except
the attorneys, the defendant, and court staff. The court
said: “We have just cleared the courtroom just for a
quick moment from the spectator gallery.” Defense
counsel then stated: “Your Honor, this is a—I thought
about the court’s suggestion, and I would ask the court
to reconsider.” Defense counsel asked that the public
be allowed to be present, including media, because “[t]o
not allow that would infringe upon the freedom of the
public to be present as well as the free press. [Smith]
has that right to a public trial.”
The district court proceeded to discuss the “pretrial ruling of the court” and advised the parties and
Smith that the court had ruled to exclude some of the
evidence of Brady’s prior bad acts. As part of the ruling,
the court explained that defense counsel could not “disclose the names of [J.K., C.K.] or Brady involved in
prior burglaries before November 22, 2012.” The court
stated that the evidence was inadmissible because

App. 102
Smith did not know the identity of those who broke
into his home before Thanksgiving. The court then explained its reasoning for closing the courtroom:
And for that reason—that was the reason that
the court is not allowing the press in for this
ruling, because otherwise it could be printed,
and indeed, while the jurors hopefully will follow the admonition not to read or hear anything in the press and TV and such in the
meantime while this case is pending, certainly
the media would publish and print the substance of the court’s pretrial ruling, and then
of course it runs the risk of getting to the jury
if for some reason they don’t adhere to their
oath.
Defense counsel then clarified whether he could call
C.K. as a witness and asked: “Your Honor, if I—are we
done with the record?” Counsel and the court had a discussion off the record. Then the courtroom 328*328
was opened. The proceeding in the closed courtroom
constituted four pages out of the 1899-page trial transcript.
Immediately after the closed proceeding, at 10:00
a.m., the judge filed a written order on the motion in
limine heard on April 17 and then discussed briefly in
the closed courtroom. The order, publicly available,
ruled that evidence of prior bad acts by Brady or Kifer,
of which Smith was not aware at the time of the shooting, would be inadmissible at trial. The order explained
that “insofar as the [evidence that Smith was the victim of prior burglaries occurring before the shooting,

App. 103
that forcible entry was made, and that weapons were
taken that were not recovered at the time of the shooting] may be received through the testimony of Deputy
Luberts or other law enforcement agents, there will be
no need to seek its admission through more prejudicial
means (i.e., through the testimony of Brady’s mother
or of a perpetrator of the prior break-ins).” The order
did not name J.K. or C.K., the alleged co-perpetrators
of the prior burglaries. At 10:03 a.m., the jury entered
the courtroom to be sworn and to hear opening statements.
Smith argues that this closed proceeding violated
his right to a public trial under the Sixth Amendment
to the U.S. Constitution and its state counterpart, Article I, Section 6 of the Minnesota Constitution.
“Whether the right to a public trial has been violated
is a constitutional issue that we review de novo.” State
v. Brown, 815 N.W.2d 609, 616 (Minn. 2012). Although
structural errors typically require automatic reversal,
State v. Everson, 749 N.W.2d 340, 347 (Minn. 2008), the
remedy for denying a defendant’s right to a public trial
“should be appropriate to the violation, and a retrial is
not required if a remand will remedy the violation.”
State v. Bobo, 770 N.W.2d 129, 139 (Minn. 2009); see
Waller v. Georgia, 467 U.S. 39, 46 (1984) (remanding a
case for a public suppression hearing when the closure
of the previous suppression hearing violated defendant’s right to a public trial and holding that if the same
evidence was not suppressed at the new hearing, there
would be no new trial).

App. 104
A.
“Both the U.S. and Minnesota Constitutions provide: ‘In all criminal prosecutions, the accused shall enjoy the right to a . . . public trial. . . .’ ” State v. Benton,
858 N.W.2d 535, 540 (Minn. 2015) (quoting U.S. Const.
amend. VI; Minn. Const. art. I, § 6). The right to a public trial is “ ‘for the benefit of the accused; that the public may see [the defendant] is fairly dealt with and not
unjustly condemned, and that the presence of interested spectators may keep his triers keenly alive to a
sense of their responsibility and the importance of
their functions.’ ” State v. Lindsey, 632 N.W.2d 652, 660
(Minn. 2001) (quoting Waller, 467 U.S. at 46).
“ ‘[T]he public trial guarantee applies to all phases
of trial.’ ” Benton, 858 N.W.2d at 540 (quoting Brown,
815 N.W.2d at 617). The phases of trial encompass preliminary hearings, Benton, 858 N.W.2d at 540; PressEnter. Co. v. Superior Court, 478 U.S. 1, 10-13 (1986);
voir dire, Presley v. Georgia, 558 U.S. 209, 213-14
(2010); witness testimony, Bobo, 770 N.W.2d at 139;
State v. Mahkuk, 736 N.W.2d 675, 683-85 (Minn. 2007);
State v. Fageroos, 531 N.W.2d 199, 201 (Minn. 1995);
closing arguments, State v. Silvernail, 831 N.W.2d 594,
601 (Minn. 2013); jury instructions, Brown, 815 N.W.2d
at 616-18; and returning of the verdict. In Waller, the
United States Supreme Court held that the right to a
public trial also applies to evidentiary suppression
hearings conducted prior to the presentation of evidence to a jury. 467 U.S. at 43, 46-47.

App. 105
When determining whether the district court’s closure of the courtroom was proper, we have adopted the
test the Supreme Court set forth in Waller, which provides:
[T]he party seeking to close the hearing must
advance an overriding interest that is likely
to be prejudiced, the closure must be no
broader than necessary to protect that interest, the trial court must consider reasonable
alternatives to closing the proceeding, and it
must make findings adequate to support the
closure.
Fageroos, 531 N.W.2d at 201 (quoting Waller, 467 U.S.
at 48).
Smith argues that an analysis of the four Waller
factors demonstrates that his Sixth Amendment right
was violated. However, “before we can apply the Waller
test to determine if a closure is justified, we must determine whether a [Sixth Amendment] closure even occurred.” State v. Taylor, 869 N.W.2d 1, 11 (Minn. 2015).
We have previously recognized that “the right to a public trial is not an absolute right.” Fageroos, 531 N.W.2d
at 201. Some situations warrant restrictions on public
access, Taylor, 869 N.W.2d at 10, and other courtroom
restrictions do not implicate a defendant’s right to a
public trial. Id. at 11 (citing Brown, 815 N.W.2d at 617).
In Lindsey, for example, we determined that some closures are “ ‘too trivial to amount to a violation of the
[Sixth] Amendment.’ ” 632 N.W.2d at 660-61 (alteration
in original) (quoting Peterson v. Williams, 85 F.3d 39,
42 (2d Cir. 1996)). Other nonpublic proceedings simply

App. 106
may not implicate the Sixth Amendment right to a
public trial, depending on the nature of the proceeding.
In Waller, the United States Supreme Court made
clear that a suppression hearing is of comparable status to a trial. But courts have distinguished suppression hearings from other “administrative” proceedings
that do not implicate the Sixth Amendment right to a
public trial. Contrary to what the “administrative” label suggests, such proceedings are not limited to purely
administrative procedures before the court, such as
scheduling. Instead, courts have also treated routine
evidentiary rulings and matters traditionally addressed during private bench conferences or conferences in chambers as routine administrative
proceedings. U.S. v. Norris, 780 F.2d 1207, 1209-11 (5th
Cir. 1986); State v. Hicks, 837 N.W.2d 51, 61 (Minn. App.
2013), aff ’d on other grounds, 864 N.W.2d 153 (Minn.
2015). It is the type of proceeding, not the location of
the proceeding, that is determinative. See Everson, 749
N.W.2d at 352 (explaining how the courtroom was
transformed into the jury room by the judge’s instructions); Hicks, 837 N.W.2d at 60-61 (determining that
the district court held a “chambers conference” in the
courtroom).
In administrative proceedings, “[n]on-public exchanges between counsel and the court on such technical legal issues and routine administrative problems
do not hinder the objectives which the Court in Waller
observed were fostered by public trials.” Norris, 780
F.2d at 1210. In contrast to a suppression hearing,
these administrative exchanges “ordinarily relate to

App. 107
the application of legal principles to admitted or assumed facts so that no fact finding function is implicated. A routine evidentiary ruling is rarely
determinative of the accused’s guilt or innocence.” Id.
at 1210. Additionally, “such evidentiary rulings ordinarily pose no threat of judicial, prosecutorial, or public abuse that a public trial is designed to protect
against.” Id. at 1210-11.6
Thus, courts have allowed nonpublic proceedings
for evidence-related proceedings such as: deciding
whether a witness will testify under threat of contempt, State v. Reed, 352 P.3d 530, 534-35, 542 (2015),
cert. denied, ___ U.S. ___, 136 S. Ct. 344 (2015); determining the scope of witness immunity, People v. Olivero, 735 N.Y.S.2d 327, 328 (N.Y. App. Div. 2001);
sidebar conferences on evidentiary rulings, State v.
Smith, 334 P.3d 1049, 1052-55 (Wash. 2014); and consideration of offers of proof, United States v. VázquezBotet, 532 F.3d 37, 51-52 (1st Cir. 2008). We, too, have
6

The concurrence casts doubt on Norris by pointing to an
earlier Fifth Circuit case, Rovinsky v. McKaskle, 722 F.2d 197
(5th Cir. 1984). In Rovinsky, the Fifth Circuit held that the defendant’s Sixth Amendment right to a public trial was violated
when the district court conducted private, in-camera hearings on
a motion in limine during the course of the trial. Id. at 200-02.
The prosecution’s motion in limine sought to restrict defense
counsel’s cross-examination of prosecution witnesses. Id. at 199.
But the facts in Rovinsky are distinguishable from this case. Here,
the pretrial hearing on the motions in limine was open to the public and did not occur behind closed doors. Therefore, regardless of
the similarity in the subject matter of the motion in this case and
that in Rovinsky, Rovinsky does not substantially undermine the
later Norris decision.

App. 108
distinguished between the key phases of trial, on the
one hand, and the concept of bench and chambers conferences, on the other. Minneapolis Star & Tribune Co.
v. Kammeyer, 341 N.W.2d 550, 560 (Minn. 1983). We
have held that bench and chambers conferences may
occur, so long as a record is made and the record is
available to the press and the public.7 Id.
B.
In this case, the district court’s nonpublic proceeding was administrative in nature and did not constitute a closure implicating Smith’s Sixth Amendment
right to a public trial. The brief proceeding was an outgrowth of two previous public hearings, held on March
25 and April 17, on the subject of evidence of other burglaries. These hearings resulted in public orders dated
April 4 and April 21.8 The essence of the nonpublic proceeding was the court explaining the parameters of its
7

Justice Brennan’s concurrence in Richmond Newspapers,
Inc. v. Virginia, also drew a distinction between bench and chambers conferences, on the one hand, and trial proceedings, on the
other hand. 448 U.S. 555, 598 n.23 (1980) (Brennan, J., concurring in judgment). We are unaware of any support (much less
from the United States Supreme Court) for the concurrence’s notion that sidebar conferences are “constitutionally distinct” from
chambers conferences such that the public must be able to view
the silent “conduct” of attorneys and the judge.
8
The district court’s stated reason for closing the April 21
proceeding was to prevent further dissemination of the names of
J.K. and C.K. Given that the names were in the public record as
of April 17, we do not understand the district court’s rationale for
closing the proceeding to the public. But any error in doing so was
not of constitutional magnitude.

App. 109
April 21 written decision. This was an issue of evidentiary boundaries, similar to what would ordinarily and
regularly be discussed in chambers or at a sidebar conference—on the record, but outside the hearing of the
public. The discussion took only minutes, it was transcribed, and it consumed only two-tenths of one percent of the trial transcript. Smith received a public
trial.9 Thus, we hold that Smith’s Sixth Amendment
right was not violated.
IV.
Third, Smith argues that the district court erroneously excluded four pieces of evidence, thereby violating his constitutional right to present a complete
defense. Smith points to the following evidentiary rulings: (1) the exclusion of witnesses who would have testified about the prior burglaries at Smith’s house; (2)
the exclusion of evidence of a shotgun taken from
Smith’s home in a prior burglary; (3) the exclusion of
testimony from an expert witness, Glenn Negen, that
Smith was suffering from critical-incident stress at the
time of the second shooting; and (4) the exclusion of
testimony linking Brady to a prior burglary at Smith’s
home. The State responds that the district court did
9

The concurrence discusses at length several issues relative
to the public trial right that we need not decide today. Because
the closed proceeding in this case was similar to a chambers or
bench conference, there is no reason to go further and describe
precisely when, as the concurrence puts it, a proceeding “resembles, and thereby possesses the characteristics of, a bench or jury
trial.” Nor is it necessary to decide whether the taking of testimony means that a proceeding has become “trial-like.”

App. 110
not abuse its discretion, and even if it did, any error
was harmless beyond a reasonable doubt because it
would not have changed the verdict.
Due process requires that every defendant be “ ‘afforded a meaningful opportunity to present a complete
defense.’ ” State v. Richards, 495 N.W.2d 187, 191
(Minn. 1992) (quoting California v. Trombetta, 467 U.S.
479, 485 (1984)). “The defendant has the right ‘to present the defendant’s version of the facts through the
testimony of witnesses.’ ” State v. Munt, 831 N.W.2d
569, 583 (Minn. 2013) (quoting State v. Richardson, 670
N.W.2d 267, 277 (Minn. 2003)). However, “both the accused and the state must comply with procedural and
evidentiary rules designed to ensure ‘both fairness and
reliability in the ascertainment of guilt and innocence.’ ” State v. Richardson, 670 N.W.2d 267, 277
(Minn. 2003) (quoting Richards, 495 N.W.2d at 195).
“If a trial court’s evidentiary ruling is determined
to be erroneous, and the error reaches the level of a
constitutional error, such as denying the defendant the
right to present a defense, our standard of review is
whether the exclusion of evidence was ‘harmless beyond a reasonable doubt.’ ” Richardson, 670 N.W.2d at
277 (quoting State v. Post, 512 N.W.2d 99, 102 (Minn.
1994)). Under this standard, we “must be satisfied beyond a reasonable doubt that if the evidence had been
admitted and the damaging potential of the evidence
fully realized, an average jury (i.e., a reasonable jury)
would have reached the same verdict.” State v. Post,
512 N.W.2d 99, 102 (Minn. 1994) (footnote omitted). “If,
on the other hand, there is a reasonable possibility that

App. 111
the verdict might have been different if the evidence
had been admitted, then the erroneous exclusion of the
evidence is prejudicial.” Id.
A.
The district court properly admitted evidence that
Smith’s house had been burglarized prior to Thanksgiving Day. But Smith argues that the district court
abused its discretion when it excluded witnesses who
would have testified in more detail about the prior burglaries. Smith sought to offer evidence of Brady’s and
Kifer’s prior bad acts, especially witness testimony
that Brady was involved in a previous burglary of
Smith’s home. As discussed above, the district court issued a written order that the evidence of Brady’s and
Kifer’s involvement was inadmissible at trial under
Minn. R. Evid. 403, on the ground that the jury must
judge the reasonableness of Smith’s actions based on
“his state of mind at the time of the shooting, not by
what was learned after the event.” As the district court
explained, at the time of the shooting, no evidence suggested that Smith “knew who Nicholas Brady was,
knew that it was Brady who had burglarized his home,
or believed that it was Brady who had burglarized his
home on a prior occasion or occasions.” (Footnote omitted.) The court determined that the evidence concerning Brady’s prior bad acts was “substantially
outweighed by the danger of unfair prejudice; that it
would entail a trial-within-a-trial; and that it would
misdirect the jury away from the ‘key inquiry’ . . . ‘the
reasonableness of the use of force and the level of force

App. 112
under the specific circumstances of each case.’ ” (Citation omitted.)
Under Minn. R. Evid. 403, the district court has
broad discretion in weighing probative value against
unfair prejudice. Doe 136 v. Liebsch, 872 N.W.2d 875,
882 (Minn. 2015); see State v. Schulz, 691 N.W.2d 474,
477 (Minn. 2005). On this issue, the district court did
not abuse that broad discretion.
In State v. Penkaty, we held that evidence of a victim’s prior violent acts “is admissible to show that the
defendant was reasonably put in apprehension of serious bodily harm, provided that the defendant knew of
the prior acts.” 708 N.W.2d 185, 202 (Minn. 2006) (emphasis added). Penkaty’s proviso applies here. Smith
suspected that his neighbor, A.W., rather than Brady
or Kifer, was committing the burglaries. The district
court did not limit Smith from presenting evidence related to “the relevant facts of prior burglaries, including that they occurred, the form of entry into [his]
property, if known, and items taken.” All of these factors went to Smith’s state of mind at the time of the
shooting and the reasonableness of his actions. But,
particular information about Brady and Kifer that
Smith did not then know was of limited, if any, probative value and posed a risk of unfair prejudice. Specifically, the jury could have become confused about what
Smith knew at the time of the shooting, thereby giving
Smith an “unfair advantage.” Minn. R. Evid. 403; see
also Schulz, 691 N.W.2d at 478.

App. 113
B.
Smith next argues that the district court improperly excluded evidence of a shotgun stolen from
Smith’s house before November 22. Two guns were stolen from Smith’s house, but neither of the guns was
used on Thanksgiving Day. The stolen shotgun was
later recovered by law enforcement. Smith identifies
error in two rulings regarding the shotgun. First, the
district court excluded the shotgun itself and instead
admitted a photograph of the gun and testimony describing it. Second, the district court prevented testimony from the deputy sheriff that the stolen gun, when
recovered, was fully functional and was likely functional on Thanksgiving Day.
The district court did not abuse its broad discretion by excluding the shotgun. The district court reasonably determined that it was not necessary for the
jury to see the gun itself to understand its deadly potential. A photograph of the shotgun was sufficient.
The district court explained that “[i]t [was] not relevant to wave the gun around” when Smith’s fear was
not tied to a particular gun, but to the fact that “people
who steal guns use guns.” Although the district court
did not cite a specific rule of evidence, it made a Rule
403 ruling. Minn. R. Evid. 403. The additional probative value of the jury seeing the shotgun, as opposed to
the photograph of the shotgun admitted into evidence,
was minimal, and the defense lawyer displaying the
shotgun in court could have been unfairly prejudicial.

App. 114
The district court abused its discretion, however,
in limiting the extent to which a witness, the deputy
sheriff, was allowed to describe the shotgun to the jury.
Defense counsel asked: “Do you have any reason to believe that [the] shotgun was not a fully-functioning
firearm?” The State objected on relevance grounds, and
the district court sustained the objection. Although the
district court’s reasoning is not in the record, the State
argues that the functionality of the shotgun was irrelevant (or only marginally relevant) to Smith’s fear that
the guns stolen from his house could be used. Smith
argues that the district court issued inconsistent rulings when it agreed that the two stolen guns “out there
[that] could be used” were relevant, yet sustained the
objection regarding the functionality of the shotgun.
Under Rule 401, evidence is relevant if it has “any
tendency to make the existence of any fact that is of
consequence to the determination of the action more
probable or less probable than it would be without the
evidence.” Minn. R. Evid. 401. Evidence that is only “
‘marginally relevant,’ ” however, may be excluded.
State v. Quick, 659 N.W.2d 701, 713 (Minn. 2003) (quoting Crane v. Kentucky, 476 U.S. 683, 689 (1986)). Here,
Smith was afraid that the burglars would use his stolen guns. Whether his stolen shotgun was functional
went to the reasonableness of Smith’s fear that the
shotgun could be used against him. This evidence was
of more than marginal relevance and should have been
admitted.
The error, though, does not require reversal, as it
was harmless beyond a reasonable doubt. A reasonable

App. 115
jury would have reached the same verdict had the district court admitted evidence that the shotgun was
functioning and the potential damage of that evidence
was fully realized. The jury heard considerable evidence that Smith was very afraid that his guns were
in the hands of the burglars. There was no evidence
presented that the stolen guns were not functional.
The jury also had the opportunity to consider the audio
recordings of the shooting, Smith’s statements to law
enforcement, and all of the other evidence presented at
trial. We therefore hold that the erroneous exclusion of
the evidence about the shotgun’s functionality was not
prejudicial.
C.
Smith also argues that the district court abused
its discretion when it excluded the testimony of Glenn
Negen, an expert who would have testified that Smith
suffered from “critical-incident stress,” which impaired
his ability to hear the events leading up to the second
shooting. For instance, Negen would have testified that
Smith did not hear Kifer when she entered the residence and that Smith may have been surprised when
she came down the stairs. The district court ruled from
the bench (and later by written order) that Negen
would not be allowed to testify about the audio-visual
impairment caused by critical-incident stress.
Assuming without deciding that the district court
abused its discretion, the exclusion of Negen’s expert
testimony was harmless beyond a reasonable doubt. A

App. 116
reasonable jury, even after hearing the expected testimony, would have reached the same verdict. As the
district court determined, the expert’s proffered testimony that Smith’s hearing was impaired was “contradicted by evidence tending to show that [Smith] did
hear Kifer before she descended the stairs.” Smith’s
statements to law enforcement after the shooting
demonstrated his ability to hear. The jury also would
have likely discounted Negen’s testimony on criticalincident stress using other evidence in the record, including the fact that at least 10 minutes passed between the end of the Brady shooting and the beginning
of the Kifer shooting. Thus, we conclude that the error,
if any, in excluding the expert testimony was harmless
beyond a reasonable doubt.
D.
Fourth, Smith alleges that the district court erred
when it excluded evidence of who might have kicked in
the basement door panel during the October 27 burglary. The evidence showed a connection between the
tread pattern on the door panel and the shoes Brady
was wearing when Smith shot him. Smith argues that
the evidence goes to his state of mind when he saw
Brady and then Kifer descending the stairway, because
he told investigators on November 23 that he saw
Brady’s feet first, shot him, and then put the shoes to
the side.
We conclude that the district court did not abuse
its discretion in excluding the tread-pattern evidence

App. 117
linking Brady to the October 27 burglary. The district
court reasonably determined that, at the time of the
shooting, Smith had no accurate knowledge of precisely who committed the previous burglaries. Smith
repeatedly told the police that he suspected his neighbor, A.W., was responsible for the burglaries and that
he thought the woman he killed was A.W. Although
Smith set Brady’s shoes to the side before shooting
Kifer, Smith told investigators that he connected
Brady’s shoes to the previous burglary only after he
shot Kifer and checked her shoes. The tread pattern on
Brady’s shoes was of no relevance to Smith’s assertion
that he acted in defense of person or property.
V.
Next, we address whether the prosecutor committed misconduct in his closing argument, and if so,
whether the district court plainly erred when it failed
to issue a cautionary instruction to the jury. Smith argues that the prosecutor committed misconduct by
asking the jury members to consider whether they
heard Kifer say “I’m sorry” on the audio recording between the third and fourth shots. Smith alleges that
the prosecutor disregarded the court’s original ruling,
which changed the words “I’m sorry” in the recording
transcript to “unclear.” Smith further contends that
the district court erred when it failed to give a promised curative instruction after ruling the prosecutor’s

App. 118
conduct was prejudicial.10 The State argues that the
prosecutor did not commit misconduct because the content of the recording was debatable, and even if the
prosecutor’s remark constituted misconduct, it was
harmless beyond a reasonable doubt.
Determining whether the district court erred on
an issue of prosecutorial misconduct is a two-step analysis. We first address whether there was misconduct,
and second, consider whether that misconduct entitles
the defendant to a new trial. State v. Wren, 738 N.W.2d
378, 390 (Minn. 2007).
A.
In determining whether misconduct occurred, we
look at whether the prosecutor’s acts “have the effect
of materially undermining the fairness of a trial.” State
v. Fields, 730 N.W.2d 777, 782 (Minn. 2007). “A prosecutor engages in prosecutorial misconduct when [the
prosecutor] violates ‘clear or established standards of
conduct, e.g., rules, laws, orders by a district court, or
clear commands in this state’s case law.’ ” State v.
McCray, 753 N.W.2d 746, 751 (Minn. 2008) (quoting
Fields, 730 N.W.2d at 782). When evaluating “ ‘prosecutorial misconduct during a closing argument, we
look to the closing argument as a whole, rather than to
10

Smith objected to the prosecutor referencing the statement
“I’m sorry” in closing argument and moved for a mistrial. The district court denied Smith’s request for a mistrial, but stated a cautionary instruction was required. None was given. Because Smith
did not object to the lack of a curative instruction, we review for
plain error.

App. 119
selected phrases and remarks.’ ” Id. (quoting Ture v.
State, 681 N.W.2d 9, 19 (Minn. 2004)). Prosecutors are
allowed to “ ‘argue all reasonable inferences from evidence in the record. It is unprofessional conduct[, however,] for the prosecutor intentionally to misstate the
evidence or mislead the jury as to the inferences it may
draw.’ ” Bobo, 770 N.W.2d at 142 (quoting State v. Salitros, 499 N.W.2d 815, 820 (Minn. 1993)); see McCray,
753 N.W.2d at 753-54; State v. Wahlberg, 296 N.W.2d
408, 419-20 (Minn. 1980).
B.
Here, the prosecutor’s statement—a question for
the jury to consider—did not constitute misconduct,
and therefore the district court did not err in failing to
issue a curative instruction. The prosecutor did no
more than argue an inference from the evidence. Listeners can reasonably disagree on the words or sounds
that Kifer uttered between the third and fourth shots.
That issue was for the jury, and the prosecutor’s reference, which allowed the jury to consider it, did not rise
to the level of misconduct.
Smith’s argument that the prosecutor violated the
court’s previous ruling is also without merit. Smith is
correct that the district court, upon listening to the recording, stated that the female voice did not say “I’m
sorry” and that the words “I’m sorry” should be replaced with the word “unclear” in the transcript of the
audio recording unless counsel could agree on what
was said. In its later ruling from the bench, however,

App. 120
the district court clarified that its original statement
was not meant to decide affirmatively what Kifer said
because the sounds were ambiguous. The court’s comments suggested that the sounds were subject to debate. Both sides were free to argue their reasonable
interpretations to the jury.
VI.
Finally, we address whether the district court
erred by allowing Smith to challenge the restitution
request for the estimated headstone expenses. The
State argues that Smith waived his right to challenge
the restitution for the headstones under Minn. Stat.
§ 611A.045, subd. 3(a) (2014) because: (1) his affidavit
was untimely; and (2) he failed to meet his burden of
production. Smith counters that the State failed to preserve both arguments for appeal.
A.
Smith’s argument that the State forfeited its timeliness and pleading arguments fails. “A reviewing court
must generally consider ‘only those issues that the record shows were presented and considered by the trial
court in deciding the matter before it.’ ” Thiele v. Stich,
425 N.W.2d 580, 582 (Minn. 1988) (quoting Thayer v.
Am. Fin. Advisers, Inc., 322 N.W.2d 599, 604 (Minn.
1982)). In the district court, the State argued in its
memorandum of law in support of the families’ request
for restitution that the only issue before the court was
whether the Brady family’s claim for restitution could

App. 121
be offset by the losses Smith incurred from the previous burglaries. The State’s argument was based on its
assertion that Smith did not meet his burden of production under Minn. Stat. § 611A.045, subd. 3(a). In its
memorandum of law to the district court, the State explained that Smith’s service was untimely and that he
did not specifically challenge the restitution request
for the headstones in his affidavit. (The State had not
received Smith’s affidavit at the time it filed the memorandum.) In response, the district court issued an order determining that Smith timely filed the affidavit
within five days of the hearing. Thus, the State preserved this issue for appeal.
B.
We now turn to whether Smith waived his right to
challenge the restitution for the headstones under
Minn. Stat. § 611A.045, subd. 3(a). “Statutory interpretation presents a question of law, which we review de
novo.” State v. Riggs, 865 N.W.2d 679, 682 (Minn. 2015).
Our objective when engaging “in statutory interpretation is to ‘effectuate the intent of the legislature.’ ” Id.
(quoting State v. Jones, 848 N.W.2d 528, 535 (Minn.
2014)); see also Minn. Stat. § 645.16 (2014). We first
look to a statute’s plain and unambiguous language to
discern the Legislature’s intent. Riggs, 865 N.W.2d at
682.
Under Minn. Stat. § 611A.045, subd. 3(a), the offender bears the initial burden of production to

App. 122
challenge a restitution request. The timing of that burden is plain and unambiguous:
[T]he offender shall have the burden to produce evidence if the offender intends to challenge the amount of restitution or specific
items of restitution or their dollar amounts.
This burden of production must include a detailed sworn affidavit of the offender setting
forth all challenges to the restitution or items
of restitution, and specifying all reasons justifying dollar amounts of restitution which differ from the amounts requested by the victim
or victims. The affidavit must be served on the
prosecuting attorney and the court at least five
business days before the hearing.
Id. (emphasis added).
Applying the plain words of the statute, the district court erred when it determined that Smith’s affidavit was timely. Smith should have served the State
and the court with his restitution affidavit at least 5
business days before the hearing. He did not. The restitution hearing was set for Tuesday, August 26, 2014.
The phrase “business days” excludes the weekend.
Smith therefore needed to serve the State with his affidavit on or before Tuesday, August 19. The affidavit
of service shows that Smith served the State via U.S.
mail on August 20, one day late, and the district court
received Smith’s affidavit on August 21, two days late.
Therefore, Smith failed to timely contest the headstone
restitution request. Accordingly, we reverse the district
court on this issue and order the court to award

App. 123
$10,049.46 in restitution for Brady’s headstone and
$9,400.16 for Kifer’s headstone.
Because Smith’s affidavit was untimely, we need
not address whether Smith failed to meet his burden
of production under Minn. Stat. § 611A.045, subd. 3(a),
or whether restitution is allowed for anticipated future
expenses.
VII.
For the foregoing reasons, we affirm Smith’s firstdegree murder convictions and reverse the district
court’s denial of restitution for the victims’ headstones.
Affirmed in part and reversed in part.
HUDSON, J., not having been a member of this
court at the time of submission, took no part in the consideration or decision of this case.

CONCURRENCE
STRAS, Justice (concurring).
“In all criminal prosecutions, the accused shall enjoy the right to a . . . public trial.” U.S. Const. amend.
VI; see also Minn. Const. art. I, § 6. This command,
found in the Sixth Amendment to the United States
Constitution and Article I, Section 6 of the Minnesota
Constitution, protects an accused by making criminal
trials open to public view. Giving access to the public
ensures that the accused is “fairly dealt with and not

App. 124
unjustly condemned” and keeps the “ ‘triers keenly
alive to a sense of their responsibility and to the importance of their functions.’ ” In re Oliver, 333 U.S. 257,
270 n.25 (1948) (quoting 1 Thomas M. Cooley, Constitutional Limitations 647 (8th ed. 1927)). The trial in
this high-profile case, which captured the attention of
Minnesotans because of its unusual facts and the
deaths of two teenagers, is precisely the type of trial
for which the protection of the Sixth Amendment is
most critical. See id. at 268-71 (discussing the origins
of the public-trial right).
In this case, no one disputes that the district court
cleared the gallery of all spectators and physically
closed the courtroom before having a discussion with
counsel from both sides about the scope of an evidentiary ruling. The evidentiary ruling prohibited Smith
from having certain witnesses testify that one of the
victims had previously burglarized his home. The district court’s reason for the closure—to keep the media
from printing the identity of the witnesses and the content of their potential testimony—was plainly unacceptable in light of the purposes underlying the Sixth
Amendment public-trial right and the press’s First
Amendment right of access to the courts. See id.; see
also Globe Newspaper Co. v. Superior Court, 457 U.S.
596, 603-06 (1982) (explaining the relationship between the Sixth Amendment public-trial right and the
First Amendment right of access to criminal trials).
Nevertheless, I reach the same conclusion as the court:
the closure in this case did not violate the Sixth
Amendment. I do so not because I view the closure as

App. 125
trivial or administrative, as the court does,1 but because I am unconvinced that the closure here occurred
during Smith’s “trial.” U.S. Const. amend. VI; Minn.
Const. art. I, § 6. Therefore, I concur only in the judgment with respect to Part III of the court’s opinion.2
I.
This case involves the prosecution of Byron David
Smith for the shootings of Nicholas Brady and Haile
Kifer, two teenagers shot by Smith during a burglary
of his home. A major theory of Smith’s defense was
that, in shooting Brady and Kifer, he was acting to defend his home against burglars whom he believed
might be armed and dangerous. The district court allowed Smith to present evidence of the previous burglaries of his home and evidence that the burglars had
stolen a shotgun during one of those burglaries.
1

To be sure, this court has used the term “trivial” to describe
those closures that do not implicate a criminal defendant’s Sixth
Amendment public-trial right. See, e.g., State v. Silvernail, 831
N.W.2d 594, 600-01 (Minn. 2013); State v. Brown, 815 N.W.2d
609, 617-18 (Minn. 2012); State v. Lindsey, 632 N.W.2d 652, 66061 (Minn. 2001). Yet I remain unpersuaded that any of these
cases actually involved courtroom closures. See United States v.
Thompson, 713 F.3d 388, 394-95 (8th Cir. 2013) (describing the
differences between complete and partial closures of a courtroom).
In each of them, the district court never cleared the gallery of all
spectators; members of the press or public were always present;
and the defendant, his family, his friends, and witnesses were
never improperly excluded. See Sheppard v. Maxwell, 384 U.S.
333, 358 (1966) (stating that the “courtroom and courthouse
premises are subject to the control of the court”).
2
I join the remainder of the court’s opinion.

App. 126
However, the parties disagreed about whether Smith
could present evidence that Brady, one of the two victims, was involved in the burglaries. Smith sought to
introduce evidence of Brady’s participation through
three witnesses: Brady’s mother and two of Brady’s
friends, C.K. and J.K., both of whom allegedly had been
involved in previous burglaries with Brady.
The district court considered arguments on that
issue on Thursday, April 17, 2014, during a hearing in
open court. Smith’s counsel argued that he should be
able to present evidence of Brady’s participation in the
burglaries through the testimony of Brady’s alleged coparticipants, C.K. and J.K., whom he identified by
name. When the court next convened, on the morning
of Monday, April 21, 2014, the judge “cleared the courtroom,” including “the spectator gallery,” which resulted
in only the defendant, the attorneys, and court staff being present in the courtroom. Defense counsel objected
to the closure, but the district court overruled the objection. The court then explained that it would not allow Smith to present testimony about Brady’s prior
bad acts, or the involvement of J.K. or C.K. in the prior
burglaries, because Smith did not know who had previously burglarized his home. The court then explained
its reason for clearing the courtroom:
[T]he court is not allowing the press in for this
ruling, because otherwise it could be printed,
and indeed, while the jurors hopefully will follow the admonition not to read or hear anything in the press and TV and such in the
meantime while this case is pending, certainly

App. 127
the media would publish and print the substance of the court’s pretrial ruling, and then
of course it runs the risk of getting to the jury
if for some reason they don’t adhere to their
oath.
After further clarifying the scope of its ruling and permitting the parties to have a brief off-the-record conversation, the district court reopened the courtroom.
The jury entered a short time later, at 10:03 a.m.
Essentially simultaneously, at 10:00 a.m., the
court filed a written order, which the court made available to the public, ruling that Smith would be allowed
to present evidence of the previous burglaries only
through the testimony of law-enforcement officers, not
“through more prejudicial means (i.e., through the testimony of Brady’s mother or of a perpetrator of the
prior break-ins).” The order did not identify J.K. or
C.K., and therefore provided less information to the
public than would have otherwise been available had
the courtroom been open that morning.
II.
The public-trial right, guaranteed by the Sixth
Amendment to the United States Constitution, has an
“obscure” historical pedigree. In re Oliver, 333 U.S. 257,
266 (1948). The right has its roots in the English common law, see id., and it first appeared in the Pennsylvania and North Carolina Constitutions in 1776, see
Pa. Const. Declaration of Rights IX (1776); N.C. Const.
Declaration of Rights IX (1776). Since then, nearly

App. 128
every state has adopted a rule, typically one of constitutional weight, requiring criminal trials to be open to
the public. See Oliver, 333 U.S. at 267-68; see also 21A
Am. Jur. 2d Criminal Law § 967 (2016) (collecting
cases). Generally, no phase of a criminal trial is exempt
from the public-trial guarantee. State v. Benton, 858
N.W.2d 535, 540 (Minn. 2015) (citing State v. Brown,
815 N.W.2d 609, 617 (Minn. 2012)); see also Richmond
Newspapers, Inc. v. Virginia, 448 U.S. 555, 564 (1980)
(plurality opinion) (“[T]hroughout its evolution, the
trial has been open to all who care to observe.”).
In addition to its English common-law heritage,
the public-trial right was in part a response to certain
historical practices. Specifically, a “distrust for secret
trials has been variously ascribed to the notorious use
of this practice by the Spanish Inquisition, to the excesses of the English Court of Star Chamber, and to the
French monarchy’s abuse of the lettre de cachet.” Oliver, 333 U.S. at 268-69 (footnotes omitted). These controversial practices, which permitted a summary
determination of guilt (lettres de cachet) or entailed
conducting some criminal proceedings in secret (Star
Chamber), were discontinued based on their unpopularity. See id. at 268-69, nn.21-23. The Star Chamber,
for example, was in tension with the common law tradition of open criminal trials that began before the
Norman Conquest. See Press-Enter. Co. v. Superior
Court, 464 U.S. 501, 505 (1984). The Bill of Rights, including the Sixth Amendment, “was enacted against
th[is] [historical] backdrop.” Richmond Newspapers,
448 U.S. at 575 (plurality opinion). The public-trial

App. 129
right became “a safeguard against any attempt to employ [the] courts as instruments of persecution.” Oliver,
333 U.S. at 270. Yet despite the basic command in the
Sixth Amendment that criminal trials are to be open
to the public, courts have long disagreed about the
scope of the public-trial right and to what types of legal
proceedings the right attaches. See United States v. Kobli, 172 F.2d 919, 922 (3rd Cir. 1949) (describing the
discord among courts as to the scope of the Sixth
Amendment’s public-trial guarantee).
A.
What is not reasonably subject to debate is that
the district court’s reasons for closing the courtroom in
this case conflict with the history and rationale of the
public-trial right. The court closed the courtroom because of its concern that, due to the high-profile nature
of the case, “the media would publish and print the
substance of the court’s pretrial ruling.” To be fair, the
court’s concern was not motivated by hostility to the
media, but rather by the possibility, hypothetical at
that point, that jurors would not “adhere to their oath”
and would read press accounts of the pretrial proceedings, including the substance of the court’s pretrial ruling to exclude certain testimony.
Such hypothetical and speculative concerns, however, do not justify the closure of a trial. The “right to a
. . . public trial” is listed first (along with the speedytrial right) among a whole series of trial rights that accrue to criminal defendants. This placement, as well as

App. 130
its history, suggests that the public-trial right is a
structural protection, like the impartial-jury requirement, that safeguards the other rights enumerated in
the Sixth Amendment, including the rights to counsel,
to confront one’s accusers, and to compulsory process.
See Freytag v. Comm’r of Internal Revenue, 501 U.S.
868, 896 (1991) (Scalia, J., concurring in part) (noting
that the public-trial right “provide[s] benefits to society” that resemble structural guarantees). As the Supreme Court of the United States has stated,
[t]he requirement of a public trial is for the
benefit of the accused; that the public may see
he is fairly dealt with and not unjustly condemned, and that the presence of interested
spectators may keep his triers keenly alive to
a sense of their responsibility and to the importance of their functions.
Waller v. Georgia, 467 U.S. 39, 46 (1984) (quoting Oliver, 333 U.S. at 270 n.25).
Moreover, as the Supreme Court recognized in creating a corollary right of access to the press under the
First Amendment, open criminal trials play an important role in ensuring confidence in government:
The value of openness lies in the fact that people not actually attending trials can have confidence that standards of fairness are being
observed; the sure knowledge that anyone is
free to attend gives assurance that established procedures are being followed and that
deviations will become known. Openness thus
enhances both the basic fairness of the

App. 131
criminal trial and the appearance of fairness
so essential to public confidence in the system.
Press-Enter., 464 U.S. at 508. The media’s access to the
trial is essential to achieving these objectives. The media often “function[ ] as surrogates for the public,” Richmond Newspapers, 448 U.S. at 573, serving as conduits
for the dissemination of information “ ‘to guarantee the
fairness of trials and to bring to bear the beneficial effects of public scrutiny upon the administration of justice.’ ” Id. at 592-93 (quoting Cox Broad. Corp. v. Cohn,
420 U.S. 469, 492 (1975)). In short, the public cannot
serve as a check on abuses of justice if the trial is conducted behind closed doors.
Thus, three flaws underpin the district court’s reasoning. First, the concern that the press might publish
an account of a proceeding should weigh in favor of
keeping the courtroom doors open, not against it, because press coverage serves the important structural
safeguard of opening the judicial process to public inspection. This is especially true when the concern motivating the closure—having the jurors learn the
identity of witnesses who would be favorable to Smith’s
claim of self-defense and the content of their potential
testimony—was not a threat to Smith’s right to a fair
trial. See Waller, 467 U.S. at 45 (stating that the right
to “an open trial may give way in certain cases to other
rights or interests, such as the defendant’s right to a
fair trial or the government’s interest in inhibiting disclosure of sensitive information”).

App. 132
Second, the court’s reasoning applies to every instance in which a court elects to conduct proceedings
outside of the hearing of the jury: if the press and the
public are present for such proceedings, then there is
always the possibility that the information might
somehow reach the jury. But such a hypothetical possibility cannot justify closing the courtroom. Cf. Minneapolis Star & Tribune Co. v. Kammeyer, 341 N.W.2d
550, 557-58 (Minn. 1983) (discussing the constitutional
prerequisites to closure of pretrial hearings based on a
concern that the defendant will be prejudiced). Indeed,
the Minnesota Rules of Criminal Procedure provide alternatives to closure that minimize the risk that potentially prejudicial information will reach the jury.
Such alternatives include, among others, sequestering
the jury, Minn. R. Crim. P. 26.03, subd. 5; admonishing
the jurors not to “read, listen to, or watch news reports
about the case,” id., subd. 9; and questioning each juror
if potentially prejudicial material is “disseminated outside the trial proceedings,” id., subd. 10. Yet aside from
providing a general admonishment to jurors warning
them not to read press accounts or watch coverage of
the trial, the district court did not explore any of these
alternatives, at least not on the record. Instead, the
court just decided to exclude the press and the public,
without making any findings supporting the closure.
See Waller, 467 U.S. at 48 (requiring a district court to
make certain findings before closing the courtroom);
Minn. R. Crim. P. 26.03, subd. 6(5) (requiring a district
court to issue a written “order and supporting findings
of fact” when making a decision to restrict “public

App. 133
access” to “portions of the trial conducted outside the
presence of the jury”).
Third, the procedure selected by the court—closure of the courtroom—was unlikely to achieve its desired effect. The district court was concerned that its
ruling, and the identity of the witnesses subject to the
ruling, would reach jurors, but the court’s April 21,
2015 order, which denied Smith’s request to have
Brady’s mother and two other witnesses testify about
Brady’s role in prior burglaries, was available to the
media. Any member of the media who attended the
open hearing on April 17, 2015, when the court heard
arguments from counsel and considered the potential
testimony of these witnesses, would have been able to
piece together the subject and scope of the court’s evidentiary ruling and publish a story about it. Accordingly, the closure had the effect of depriving the
proceedings of at least some of their appearance of legitimacy for only the most marginal of benefits to the
objective of maintaining an impartial jury.
I do not mean to suggest that a district court can
never close a courtroom during a criminal trial, regardless of the interests involved. Clearly, there are instances in which closure of the courtroom is not only
acceptable, but may be required. See Waller, 467 U.S.
at 45. However, for any closure during a trial to meet
constitutional requirements:
[T]he party seeking to close the hearing must
advance an overriding interest that is likely
to be prejudiced, [2] the closure must be no

App. 134
broader than necessary to protect that interest, [3] the trial court must consider reasonable alternatives to closing the proceeding, and
[4] it must make findings adequate to support
the closure.
Id. at 48.
If we were to apply the Waller factors to the courtroom closure in this case, there is little doubt that the
closure would fail them. Even if the hypothetical possibility that jurors would learn about Brady’s prior
burglary attempts was an “overriding interest that
[was] likely to be prejudiced”—itself a dubious conclusion—there is no question that the district court failed
to consider “reasonable alternatives to closing the proceeding” or to “make findings adequate to support the
closure.” Id. Accordingly, whether the closure in this
case violates the public-trial right depends on whether
the closure occurred during “trial,” which is the proceeding to which the right attaches. See U.S. Const.
amend. VI (granting “the accused . . . the right to a
speedy and public trial”); see also Presley v. Georgia,
558 U.S. 209, 212 (2010) (asking whether the right to a
public trial “extends” to jury selection); id. at 217-18
(Thomas, J., dissenting) (framing the question as
whether jury voir dire was covered by the “Sixth
Amendment’s ‘[P]ublic [T]rial’ Clause” (alteration in
original)).

App. 135
B.
The most analytically difficult question in this
case is whether the district court’s explanation of a
pretrial evidentiary ruling constitutes a part of the
“trial” to which the public-trial right attaches. In discussing the First Amendment right of access to the
courts, we have noted that, “at common law, there was
no tradition of public access to pretrial proceedings.”
Kammeyer, 341 N.W.2d at 555. Similarly, the United
States Court of Appeals for the Fifth Circuit has rejected the application of the public-trial right to discussions of pretrial evidentiary rulings, reasoning that a
“routine evidentiary ruling is rarely determinative of
the accused’s guilt or innocence” and that such discussions “ordinarily pose no threat of judicial, prosecutorial or public abuse.” See United States v. Norris, 780
F.2d 1207, 1210 (5th Cir. 1986). The Norris approach,
which does not extend the Sixth Amendment publictrial right to discussions of routine evidentiary matters
and other administrative tasks, appears to be the majority rule. See, e.g., United States v. Valenti, 987 F.2d
708, 714 (11th Cir. 1993); United States v. Gurney, 558
F.2d 1202, 1210 (5th Cir. 1977); State v. Reed, 352 P.3d
530, 540-42 (Kan. 2015); State v. Smith, 334 P.3d 1049,
1052-55 (Wash. 2014). I am less confident than the
court, however, that Norris and these other cases draw
the constitutional line in the right place.3
3

Norris, the principal case relied upon by the court, may not
extend quite as far as the court suggests. Just 2 years earlier, the
United States Court of Appeals for the Fifth Circuit decided
Rovinsky v. McKaskle, in which it concluded that a trial court

App. 136
My doubt is rooted in the Supreme Court’s decision in Waller v. Georgia, which predated Norris by 2
years. 467 U.S. 39 (1984). In Waller, the Court considered whether the Sixth Amendment required a courtroom to be open during a 7-day pretrial suppression
hearing in which the legality and admissibility of wiretap recordings were at issue. See id. at 41-42. The trial
court had closed the hearing because of the potential
application of a Georgia law that rendered wiretap recordings inadmissible if they were published for any
purpose other than a “ ‘necessary and essential’ ” one.
See id. (quoting Ga. Code Ann. § 16-11-64(b)(8) (1982)).
After the trial, the transcript of the closed hearing was
released to the public. See id. at 43
The Supreme Court unanimously held that the
public-trial right extended to the pretrial suppression
hearing in Waller. See id. at 47. It reasoned that the
“aims and interests” underlying the public-trial right
“are no less pressing in a hearing to suppress wrongfully seized evidence” and that “suppression hearings
often are as important as the trial itself.” Id. at 46. In
reaching its decision, the Court focused on the fact that
“a suppression hearing often resembles a bench trial:
witnesses are sworn and testify[,] . . . [and] [t]he

violated a criminal defendant’s Sixth Amendment right to a public trial when it decided to conduct closed proceedings on a motion
in limine seeking to restrict defense counsel’s cross-examination
of prosecution witnesses. 722 F.2d 197, 200-02 (5th Cir. 1984).
The subject matter of the motion in this case closely resembles
the motion from Rovinsky.

App. 137
outcome frequently depends on a resolution of factual
matters.”4 Id. at 47.
One of the lessons from Waller is that a closure is
less likely to be constitutionally acceptable when a
hearing involves live witness testimony, which is one
of the reasons that I cannot join Part III of the Court’s
opinion. I understand the court to be holding—categorically, in fact—that a district court may close the courtroom during administrative proceedings and when
making routine evidentiary rulings, whether in a
bench conference or in another setting, without violating the Sixth Amendment.
In my view, however, the court’s rule focuses on the
wrong question. The question is not whether the task
is administrative or legal, as the court seems to suggest. Rather, the relevant question is whether a criminal proceeding resembles, and thereby possesses the
characteristics of, a bench or jury trial. See United
4

The Supreme Court’s examination of whether the pretrial
suppression hearing in Waller “resemble[d] a bench trial,” as well
as its holding in that case, suggest that the inquiry under the
Sixth Amendment is functional rather than formal. A formal approach would consist of determining only whether a particular
proceeding is, in fact, part of the “trial.” A functional approach, by
contrast, is flexible: the focus is on whether a particular proceeding is the functional equivalent of a trial. Cf. N.L.R.B. v. Noel Canning, ___ U.S. ___, ___, 134 S.Ct. 2550, 2563 (2014) (adopting a
functional definition of the word “recess” in the Recess Appointments Clause of the United States Constitution). Waller’s approach of comparing and contrasting the characteristics of
pretrial suppression hearings and trials is indicative of a functional approach to questions regarding the scope of the publictrial right.

App. 138
States v. Thompson, 713 F.3d 388, 393 (8th Cir. 2013)
(concluding that the public-trial right applies to sentencing hearings, largely because they are “trial like”
proceedings). When a criminal proceeding involves the
presentation of witness testimony, the arguments of
counsel on a disputed question, or invocation of the
court’s fact-finding function, it is more likely to be subject to the requirements of the Sixth Amendment,
whether or not it involves what appears to be an administrative task or a routine evidentiary motion.5 See,
e.g., Rovinsky v. McKaskle, 722 F.2d 197, 200-02 (5th
Cir. 1984) (extending the Sixth Amendment’s publictrial right to a hearing on motions in limine); Commonwealth v. Jones, 472 Mass. 707, 37 N.E.3d 589, 603-08
(2015) (extending the Sixth Amendment public-trial
right to hearings on the application of Massachusetts’
rape-shield law).
In this case, because all of the trial-like aspects of
the proceedings—specifically, the consideration of witness testimony and the arguments of counsel—occurred during a hearing in open court on April 17,
5

Sidebar conferences during trial, which the court conducts
outside the earshot of the jury, are constitutionally distinct from
the types of proceedings at issue here. In contrast to chambers
conferences or closed evidentiary hearings, sidebar conferences
permit members of the public to view the conduct of the attorneys
and the judge, even if members of the gallery cannot hear what
the attorneys and the judge are saying. See People v. Virgil, 253
P.3d 553, 578 (Cal. 2011) (noting that it cannot find any cases
holding that “sidebar conferences” during trial “are akin to a closure of the courtroom”). In such a situation, the trial itself remains open and public, which is all that the Sixth Amendment
requires.

App. 139
2014, I would conclude that Smith’s right to a public
trial was not violated. Aside from discussing the scope
of the court’s written order, nothing else occurred during the brief hearing on the morning of April 21, 2014
that resembled a bench or jury trial. Accordingly, although the district court should not have closed the
courtroom on the morning of April 21, see Minn.
R. Crim. P. 26.03, subd. 6 (creating rules for “closed
hearing[s]”), I cannot conclude under these facts that
the closure violated Smith’s rights under either the
Sixth Amendment to the United States Constitution or
Article I, Section 6 of the Minnesota Constitution.

App. 140
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2915
Byron David Smith
Appellant
v.
Jeff Titus, Warden, MCF – Oak Park Heights
Appellee
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
District of Minnesota – St. Paul
(0:17-cv-00673-JRT)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Stras did not participate in the consideration or decision of this matter.
June 08, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_____________________________
/s/ Michael E. Gans

